<html>
<title> - SCIENCE AND TECHNOLOGY AT THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     SCIENCE AND TECHNOLOGY AT THE
                    ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2019

                               __________

                           Serial No. 116-46

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-664 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------       
     

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                         
                         
                         C  O  N  T  E  N  T  S

                           September 19, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written statement............................................    15

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    16
    Written statement............................................    18

                                Witness:

The Honorable Andrew Wheeler, Administrator, Environmental 
  Protection Agency
    Oral Statement...............................................    19
    Written Statement............................................    22

Discussion.......................................................    26

             Appendix I: Answers to Post-Hearing Questions

The Honorable Andrew Wheeler, Administrator, Environmental 
  Protection Agency..............................................    68

            Appendix II: Additional Material for the Record

Article submitted by Representative Zoe Lofgren, U.S. House of 
  Representatives................................................   116

Article submitted by Representative Brian Babin, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   119

Letter submitted by Representative Lizzie Fletcher, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   122

Documents submitted by Representative Sean Casten, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   124

Study submitted by Representative Sean Casten, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   126

Additional material submitted by The Honorable Andrew Wheeler, 
  Administrator, Environmental Protection Agency.................   137

 
                     SCIENCE AND TECHNOLOGY AT THE
                    ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:00 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Eddie 
Bernice Johnson [Chairwoman of the Committee] presiding.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Johnson. This hearing will come to order. 
Without objection, the Chair is authorized to declare a recess 
at any time.
    Good morning. The Administrator's staff has informed us 
that he must leave this hearing at noon, leaving less than 2 
hours for Member questions. So in order to afford more Members 
the opportunity to engage with the Administrator, I've asked 
that each Member be limited to a total of 4 minutes to ask 
questions. Without objection, so ordered.
    I want to note for the record that we received 
Administrator Wheeler's testimony less than 24 hours before the 
start of the hearing. We did give sufficient notice for this 
hearing, and it is important for Members and staff to be able 
to review testimony prior to the hearing to properly prepare. 
We expect that in the future hearings we'll receive the EPA's 
testimony at least 48 hours in advance.
    I'd like to welcome our Administrator--good morning, Mr. 
Wheeler--to the Committee on Science, Space, and Technology for 
the first time. The Members of this Committee look forward to 
your testimony today and as we all understand and value the 
important role the EPA plays in the health, safety, and 
prosperity in our communities.
    I know I speak for many of my colleagues when I say that 
our constituents also understand the importance of a strong 
EPA, and they are paying attention to the decisions being made 
here in Washington. They reach out to us when they hear about 
the dismantling of clean air standards because they are 
concerned that it could exacerbate their children's asthma. 
They reach out to us when EPA's own IRIS (Integrated Risk 
Information System) assessments show that chemicals being 
released from nearby facilities could pose serious health risks 
to their families. They reach out to us because Congress has a 
responsibility to the American public to protect their best 
interests through dedicated oversight of the Federal agencies 
that are supposed to be protecting our health and safety.
    This Administration has shown that its priorities do not 
lie with the average American. Draconian cuts in the 
President's budget requests have sought to cut funding for 
EPA's research and development (R&D) nearly in half. The 
research that EPA funds has been vital to the development of 
its landmark public health protections.
    The research conducted and supported by EPA is not 
replicated by any other local, State, or Federal agency. 
Cutting this critical research to the levels proposed by this 
Administration would be an insurmountable loss to environmental 
science and public health. It is profoundly disturbing to see 
the actions this EPA has taken to dismantle many of its own 
standards and regulations that were established primarily to 
protect public health.
    This Administration's push to deregulate seems to be led by 
political ideologies, with limited input from scientific 
experts. Remarkably, sometimes this Administration's zeal to 
roll back public health protection even exceeds the desires of 
industry.
    Many Members of the regulated community have come out in 
opposition to EPA's recent actions to roll back regulations on 
glider trucks, methane emissions from the oil and gas industry, 
and EPA's unprecedented and ill-advised revocation of 
California's authority to set its own clean car standards.
    Since the establishment of the EPA nearly 50 years ago, 
this country has shown that we can protect everyone, from our 
most vulnerable populations to our most healthy, without 
sacrificing economic growth. But it is naive to think that 
because the EPA has been so successful in accomplishing its 
mission over the past decades that we can now roll back 
regulations in order to benefit industry and expect no negative 
impacts on public health.
    Environmental protection is an ongoing process. It requires 
the persistence that is exemplified by the dedicated scientists 
and engineers who work at EPA. These committed public servants 
have the full support of the American people. But they need 
your full support, Mr. Administrator, as well as full support 
of Congress, to help them continue to carry out the Agency's 
mission. Let me be clear, gutting the roles of science in EPA's 
regulatory and decisionmaking processes will not make our air 
safer to breath or our water safer to drink.
    As the congressional Committee with jurisdiction over 
research and development activities at EPA, my colleagues and I 
take our oversight role very seriously. We have attempted to 
engage with you and your staff on a number of occasions and 
issues that directly impact public health. We are still waiting 
for adequate responses from the Agency on many of these 
inquiries. Simply stating the total number of pages of 
documents provided to the Committee does not address whether 
they are responsive to the requests.
    I hope this will not be the only time that we can see you 
before the Committee, and today marks the start of an open 
dialog between our Members and yourself. We look forward to 
working together with you to ensure that the best interests of 
the American public are at the heart of EPA's actions and that 
those actions are informed by the high-caliber science that 
distinguishes EPA on the world stage.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning. I would like to welcome Administrator Wheeler 
to the Committee on Science, Space, and Technology for the 
first time. The Members of this Committee look forward to your 
testimony today as we all understand and value the important 
role the EPA plays in the health, safety, and prosperity of our 
communities.
    I know I speak for many of my colleagues when I say that 
our constituents also understand the importance of a strong 
EPA, and they are paying attention to the decisions being made 
here in Washington. They reach out to us when they hear about 
the dismantling of clean air standards, because they are 
concerned it could exacerbate their children's asthma. They 
reach out to us when EPA's own IRIS assessments show that 
chemicals being released from nearby facilities could pose 
serious health risks to their families.
    They reach out to us because Congress has a responsibility 
to the American public to protect their best interests through 
dedicated oversight of the Federal agencies that are supposed 
to be protecting their health and safety.
    This Administration has shown that its priorities do not 
lie with the average American. Draconian cuts in the 
President's budget requests have sought to cut funding for 
EPA's research and development nearly in half. The research 
that EPA funds has been vital to the development of its 
landmark public health protections. The research conducted and 
supported by the EPA is not replicated by any other local, 
state, or federal agency. Cutting this critical research to the 
levels proposed by this Administration would be an 
insurmountable loss to environmental science and public health.
    It is profoundly disturbing to see the actions this EPA has 
taken to dismantle many of its own standards and regulations 
that were established primarily to protect public health. This 
Administration's push to deregulate seems to be led by 
political ideologues, with limited input from scientific 
experts. Remarkably, sometimes this Administration's zeal to 
roll back public health protections even exceeds the desires of 
industry. Many members of the regulated community have come out 
in opposition to EPA's recent actions to roll back regulations 
on glider trucks, methane emissions from the oil and gas 
industry, and EPA's unprecedented and ill advised revocation of 
California's authority to set its own clean car standards.
    Since the establishment of the EPA nearly 50 years ago, 
this country has shown that we can protect everyone, from our 
most vulnerable populations to our most healthy, without 
sacrificing economic growth. But it is naive to think that 
because the EPA has been so successful in accomplishing its 
mission over the past decades that we can now roll back 
regulations in order to benefit industry and expect no negative 
impacts to public health.
    Environmental protection is an ongoing process. It requires 
the persistence that is exemplified by the dedicated scientists 
and engineers who work at the EPA. These committed public 
servants have the full support of the American people. But they 
need your full support, Mr. Administrator, as well as the full 
support of Congress, to help them continue to carry out the 
Agency's mission.
    Let me be clear, gutting the role of science in EPA's 
regulatory and decision-making processes will not make our air 
safer to breath, or our water safer to drink.
    As the Congressional Committee with jurisdiction over 
research and development activities at EPA, my colleagues and I 
take our oversight role very seriously. We have attempted to 
engage with you and your staff, Mr. Administrator, on a number 
of issues that directly impact public health. We are still 
waiting for adequate responses from the Agency on many of these 
inquiries. Simply stating the total number of pages of 
documents provided to the Committee does not address whether 
they are responsive to our requests.
    I hope this will not be the only time we see you before 
this Committee, and that today marks the start of an open 
dialogue between our Members and yourself. We look forward to 
working together with you to ensure that the best interests of 
the American public are at the heart of the EPA's actions, and 
that those actions are informed by the high-caliber science 
that distinguishes EPA on the world stage.

    Chairwoman Johnson. The Chair now recognizes the Ranking 
Member, Mr. Lucas, for an opening statement.
    Mr. Lucas. Thank you, Chairwoman Johnson. And thank you, 
Administrator Wheeler, for being here today to discuss the 
EPA's Fiscal Year 2020 budget request.
    The EPA is charged with the broad and vital mission of 
protecting our Nation's air, land, and water. From hazardous 
waste clean-up to protecting human health to setting clean air 
and water standards, the EPA's work affects every American.
    While much of the EPA's regulatory mission falls under the 
jurisdiction of other congressional Committees, the Committee 
on Science, Space, and Technology oversees the EPA's work on 
environmental research and development. This R&D is critical to 
providing sound science needed for the EPA to effectively carry 
out their mission to protect our environment. I'm looking 
forward to a discussion about the role science and technology 
play in the Agency's mission, and I'd like to encourage my 
colleagues to focus on the important jurisdiction when 
questioning the Administrator.
    In my many years on both the Ag and Science Committees, 
every discussion of the EPA included talk of overregulation. In 
the past, it seemed like instead of protecting the environment, 
the EPA was more focused on pursuing a political agenda that 
led to an expansive, and, I might add, expensive regulatory 
burdens.
    Fortunately, this is no longer the case. Under the 
leadership of Administrator Wheeler, the EPA has shifted from 
top-down, one-size-fits-all regulations to a flexible, 
technology-driven approach that works with local communities to 
protect our environment and maintain economic growth. I'm 
confident that under the leadership of Administrator Wheeler, 
America will remain the gold standard of environmental 
protection around the world. And by leveraging new 
technologies, we can protect our environment without imposing 
sweeping government mandates.
    As the Ranking Member of the Science Committee, I may be 
biased, but I believe that technology should be the cornerstone 
of our efforts to reduce global emissions and address our 
environmental challenges. American industry is already making 
great strides by investing in technologies like carbon capture, 
advanced nuclear, and energy storage. EPA should encourage the 
adoption of innovative ways to monitor and reduce emissions, 
while allowing us to use all of our natural resources safely 
and effectively.
    This is the kind of approach that has helped significantly 
improve air quality in the United States. According to the 
EPA's most recent air trends report, the number of unhealthy 
air days, along with the emissions of key air pollutants, have 
declined since 2000. Our fine particulate matter levels are 5-
times lower than the global average. And we've made progress 
while growing our economy.
    Under the Trump Administration, I've been pleased to see 
the EPA focus on using sound, transparent science to develop 
environmental solutions that will bring all the stakeholders to 
the table. If we want our policies to be successful, they need 
to be based on the best available science and also be 
achievable without damaging our economy. I believe the 
Administration is working hard on both.
    I also want to take a moment and applaud Administrator 
Wheeler for finalizing the first step to repeal the Obama 
Administration's WOTUS (Waters of the United States) rule this 
week. This rule is exactly the wrong way to protect the 
environment, a Federal Government power grab that made it 
harder for farmers, ranchers, and landowners to do business. By 
returning to limited regulatory authority established under the 
Clean Water Act, the EPA has taken a balanced approach that 
both supports our environment and our economy.
    But don't let anyone fool you. Rolling back this regulation 
had nothing to do with ignoring the science, and it won't lead 
to more pollution in our waterways. In fact, the Trump 
Administration has prioritized efforts to improve water quality 
by investing in water infrastructure.
    Although the Water Infrastructure Finance and Innovation 
Act loan program and the State Revolving Funds program, the EPA 
has helped local communities modernize outdated infrastructure 
and improve water quality. This investment will improve the 
health and safety of our Nations' waterways and create jobs.
    I'm sure that we'll hear criticisms of the EPA today. I 
hope that instead of falsely attacking the Agency as anti-
science, or focusing on Administrator Wheeler's predecessor, we 
can make this a productive hearing where we honestly assess the 
work being done to protect the environment. I believe the EPA 
is on the right track and is working to find a science-based, 
collaborative approach to ensure all Americans and future 
generations can enjoy a cleaner, safer, healthier environment.
    I want to thank Administrator Wheeler again for his hard 
work, along with all of the staff at the EPA, and I look 
forward to hearing his testimony this morning.
    And I yield back, Madam Chair.
    [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Johnson, and thank you Administrator 
Wheeler for being here today to discuss the EPA's fiscal year 
2020 budget request.
    The EPA is charged with the broad and vital mission of 
protecting our nation's air, land, and water. From hazardous 
waste clean-up to protecting human health to setting clean air 
and water standards, the EPA's work affects every American.
    While much of the EPA's regulatory mission falls under the 
jurisdiction of other Congressional Committees, the Committee 
on Science, Space, and Technology oversees the EPA's work on 
environmental research and development. This R&D is critical to 
providing the sound science needed for the EPA to effectively 
carry out their mission to protect our environment.
    I'm looking forward to a discussion about the role science 
and technology play in the agency's mission, and I'd like to 
encourage my colleagues to focus on this important jurisdiction 
when questioning the Administrator.
    In my years on both the Agriculture and Science Committees, 
every discussion of the EPA included talk of overregulation. In 
the past, it seemed like instead of protecting the environment, 
the EPA was more focused on pursuing a political agenda that 
led to expansive, and might I add expensive, regulatory 
burdens.
    Fortunately, that is no longer the case. Under the 
leadership of Administrator Wheeler, the EPA has shifted from 
top-down, one-size-fits-all regulations, to a flexible, 
technology-driven approach that works with local communities to 
protect our environment and maintain economic growth.
    I'm confident that under the leadership of Administrator 
Wheeler, America will remain the gold standard of environmental 
protection around the world. And by leveraging new 
technologies, we can protect our environment without imposing 
sweeping government mandates.
    As the Ranking Member of the Science Committee, I may be 
biased - but I believe that technology should be the 
cornerstone of our efforts to reduce global emissions and 
address our environmental challenges. American industry is 
already making great strides by investing in technologies like 
carbon capture, advanced nuclear, and energy storage.
    EPA should encourage the adoption of innovative ways to 
monitor and reduce emissions, while allowing us to use all of 
our natural resources safely and effectively.
    That is the kind of approach that has helped significantly 
improve air quality in the United States. According to the 
EPA's most recent air trends report, the number of unhealthy 
air days, along with the emissions of key air pollutants, have 
declined since 2000. Our fine particulate matter levels are 
five times lower than the global average. And we've made that 
progress while growing our economy.
    Under the Trump Administration, I've been pleased to see 
the EPA focus on using sound, transparent science to develop 
environmental solutions that bring all the stakeholders to the 
table. If we want our policies to be successful, they need to 
be based on the best available science - and also be achievable 
without damaging our economy. I believe this Administration is 
working hard to do both.
    I also want to take a moment and applaud Administrator 
Wheeler for finalizing the first step to repeal the Obama 
Administration's WOTUS rule this week. This rule was exactly 
the wrong way to protect the environment - a federal government 
power grab that made it harder for farmers, ranchers, and 
landowners to do business.
    By returning to limited regulatory authority established 
under the Clean Water Act, the EPA has taken a balanced 
approach that supports both our environment and the economy.
    But don't let anyone fool you. Rolling back this regulation 
had nothing to do with ignoring the science, and it won't lead 
to more pollution in our waterways. In fact, the Trump 
Administration has prioritized efforts to improve water quality 
by investing in water infrastructure.
    Through the Water Infrastructure Finance and Innovation Act 
loan program and State Revolving Funds program, the EPA has 
helped local communities modernize outdated infrastructure and 
improve water quality. This investment will improve the health 
and safety of our nations' waterways and create jobs.
    I'm sure that we will hear criticisms of the EPA today. I 
hope that instead of falsely attacking the Agency as anti-
science, or focusing on Administrator Wheeler's predecessor, we 
can make this a productive hearing where we honestly assess the 
work being done to protect our environment. I believe the EPA 
is on the right track, and is working to find a science-based, 
collaborative approach to ensure all Americans and future 
generations can enjoy a cleaner, safer, and healthier 
environment.
    I want to thank Administrator Wheeler again for his hard 
work, along with all the staff at the EPA, and look forward to 
hearing his testimony this morning.

    Chairwoman Johnson. Thank you, Mr. Lucas.
    If there are other Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    Before we open, I want to welcome the Moms Clean Air Force 
in the audience in red T-shirts--parents united against air 
pollution. Thank you for coming.
    At this time I'd like to introduce our witness. The 
Honorable Andrew Wheeler currently serves as the 15th 
Administrator of the Environmental Protection Agency. Mr. 
Wheeler has spent his career working on environmental topics, 
started his career as a Special Assistant to the EPA's 
Pollution Prevention and Toxics Office under the H.W. Bush 
Administration. He spent 12 years on the Senate Committee of 
Environmental Public Works serving 6 of those years as Chief 
Counsel and Minority and Majority Staff Director.
    In 2009, Mr. Wheeler shifted to private-sector work and was 
a principal and team leader of the Energy and Environment 
Practice Group, as well as co-chair of the Energy and Natural 
Resources Group at Faegre Baker Daniels consulting. He was 
nominated to serve as the Deputy Administrator of the EPA in 
October 2017 and was confirmed as Administrator in February 
2019.
    He earned his law degree at Washington University in St. 
Louis and his MBA at George Mason University. He is also an 
Eagle Scout.
    Administrator Wheeler, you will have 5 minutes for your 
spoken testimony. Your written testimony will be included in 
the record for the hearing. When you have completed your spoken 
testimony, we will begin a round of questions. Each Member will 
have 4 minutes to question the panel. Welcome, and you may 
begin your testimony.

           TESTIMONY OF THE HONORABLE ANDREW WHEELER,

         ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Wheeler. Good morning, and thank you, Chairwoman 
Johnson, for the introduction. And I do agree. I hope today's 
hearing is the start of a good, open dialog with the Committee 
between myself and the Committee and my staff. Thank you very 
much. Good morning, Ranking Member Lucas and Members of the 
Committee.
    The Environmental Protection Agency is one of the world's 
leading research organizations. Every day, our scientists and 
researchers develop information and technology that are 
critical to protecting human health and the environment. Since 
I've taken the lead at EPA, I visited five of our research 
facilities and the Lake Guardian, our largest research vessel 
located on the Great Lakes.
    I am regularly briefed by agency scientists, and I rely on 
their work and expertise. I'm always impressed with the rigor, 
integrity, and dedication of our career scientists and staff. 
I'm here today to discuss the ways that we are supporting and 
advancing their efforts.
    We are promoting science at the Agency more than it has 
been in years. And these efforts are leading to groundbreaking 
advancements in environmental science. Earlier this week, for 
example, we announced approximately $6 million in new funding 
to eight leading research organizations to advance our 
understanding of PFAS (Per- and polyfluoroalkyl substances). 
This is just one of the many ways that we are delivering on our 
PFAS action plan, the most comprehensive, multimedia research 
and risk communication plan to address a chemical of concern 
ever issued by the EPA.
    Our scientists, working in concert with the Department of 
Defense, are providing the research and technology to support 
the action plan. They're developing methods to detect and 
quantify PFAS in the air, water, and soil. They are evaluating 
methods to treat or remove PFAS from drinking water. They 
developed a draft toxicity assessment for GenX and PFBS, and 
they are working to understand the potential toxicity for the 
many other PFAS and their potential degradation products. EPA 
is one of the few places in the world where this type of 
cutting-edge science is being conducted day in and day out.
    We're also leading the way on research for reducing 
childhood lead exposure. Our scientists are identifying high-
risk areas and providing technical assistance for reducing lead 
in drinking water and at contaminated sites. Their modeling 
efforts and research activities are directly impacting major 
regulatory decisions such as our forthcoming proposal to update 
the lead and copper rule, the first major update in over 2 
decades. And the same outstanding researchers who provided 
vital information to help Flint, Michigan, are now working with 
State and local officials in Newark, New Jersey, on their 
efforts to ensure safe drinking water for the city's residents.
    To support our scientists and researchers, we are 
continuing looking for ways to make the Agency more effective 
and more responsive. That is why we are restructuring the 
Office of Research and Development (ORD). We've briefed many of 
you and your staff on this reorganization, but I'd like to 
reiterate that it will help ORD better address the increasingly 
complex environmental challenges of the 21st century. It will 
not result in the loss of jobs. It does not change any of the 
important work ORD is tasked with, only how we manage those 
functions. And I'd like to remind you that this effort was led 
by EPA career staff. We plan to have the reorganization in 
place by October 1.
    Earlier this month, we took another step in modernizing the 
Agency by committing to aggressively reduce animal testing. 
This issue is very important to me personally. Advances in 
computer modeling and in-vitro testing are surpassing animal 
testing, and we need to keep pace. I issued a memo that commits 
the Agency to important goals such as reducing mammal study 
requests and funding by 30 percent by 2025 and then eliminating 
all requests and funding by 2035. Any request for funding after 
2035 will require the Administrator's approval on a case-by-
case basis.
    We also announced $4.25 million in funding to five research 
universities to advance the development of alternative test 
methods for evaluating the safety of chemicals that will 
minimize and hopefully eliminate the need for animal testing.
    Finally, we are committed to the highest-quality science. 
Good science is science that can be replicated and 
independently validated, science that holds up to scrutiny. 
That is why we're moving forward to ensure that the science 
supporting Agency decisions is transparent and available for 
evaluation by the public and stakeholders. I cut my teeth as a 
career employee at the Agency working on the Community Right-
to-Know Act. I fundamentally believe the more information we 
provide to the public the better our regulations will be and 
the more they will trust our decisions. At the same time, we 
will ensure that we're not disclosing confidential or personal 
information. Other agencies already do that, and we can do the 
same. Our proposed rule will apply prospectively to final 
significant regulatory actions, and we intend to issue a 
supplemental proposed rule to our science transparency 
regulation early next year.
    I'm very proud of the science we do at the Agency. As you 
all heard at a recent hearing, EPA has one of the strongest 
scientific integrity policies in the Federal Government. The 
GAO (Government Accountability Office) report recently examined 
our policies and those of nine other agencies, and we are the 
only agency that received no recommendations to correct 
deficiencies. That is a testament to the tremendous work of the 
EPA career staff. I will continue to support them in their 
work, and we will ensure that the EPA of the 21st century 
remains a global leader in science and research. Thank you.
    [The prepared statement of Mr. Wheeler follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you, Mr. Wheeler.
    I'd like to ask now unanimous consent that Representative 
Axne be allowed to join us on the dais. And then further, I'd 
like to acknowledge and recognize Mr. Tonko for the first round 
of questions since he has to leave. Mr. Tonko.
    Mr. Tonko. Thank you very much, Madam Chair. I appreciate 
your flexibility. And welcome, Mr. Administrator.
    EPA established its Scientific Integrity Policy in 2012 in 
order to formalize the Agency's approach to honesty, 
communication, professional development, and expert engagement 
on scientific issues. As you likely know, the Government 
Accountability Office's review of scientific integrity policies 
at several Federal agencies highlighted the EPA's robust 
scientific integrity policies. I would like to congratulate the 
EPA for its impressive Scientific Integrity Policy, 
particularly as I worked to pass the Scientific Integrity Act, 
which would codify, standardize, and strengthen scientific 
integrity policies across our Federal agencies.
    I just heard your closing statement, but I want to ask 
again. Until we can codify this requirement, can I expect your 
continued support for your Agency's robust scientific integrity 
policies?
    Mr. Wheeler. Yes, absolutely.
    Mr. Tonko. Thank you, sir. And chlorpyrifos is a pesticide 
that causes severe short- and long-term health impacts. 
Agricultural workers have collapsed from exposure, nauseated 
and convulsing. Particularly horrifying are the impacts of 
chlorpyrifos on developing fetuses and young children. When EPA 
proposed in 2015 to ban the chemical, it cited studies showing 
that at 3 years old the likelihood of highly exposed children 
developing mental delays were significantly greater than those 
with lower prenatal exposure. But just this past July, EPA 
announced it would allow chlorpyrifos back on the market.
    I have a series of questions that I would ask you respond 
to in yes or no fashion. In rolling back EPA's recommended ban 
on chlorpyrifos, did the Agency consider its own findings about 
the severe health and developmental consequences for children 
and workers exposed to this pesticide, sir? Yes or no?
    Mr. Wheeler. Our career staff looked aggressively at the 
science that we had in making the decision----
    Mr. Tonko. That's yes. EPA previously stated that the 
Agency's assessment contained sufficient evidence to conclude 
that negative neurodevelopmental effects from chlorpyrifos 
occur at exposure levels below the currently permitted level. 
Are you aware of the--yes or no--of the findings in this report 
the EPA's revised human health risk assessment?
    Mr. Wheeler. I'm aware of those, but we are currently 
reviewing----
    Mr. Tonko. So----
    Mr. Wheeler [continuing]. The pesticide----
    Mr. Tonko. OK.
    Mr. Wheeler [continuing]. And we're----
    Mr. Tonko. That's a yes.
    Mr. Wheeler [continuing]. On track to review it by 2022.
    Mr. Tonko. Thank you. Did EPA base its decision to allow 
industrial use of chlorpyrifos on new, unrevealed scientific 
evidence that contradicted or discredited the Agency's 2015 
analysis? Yes or no?
    Mr. Wheeler. I would have to get back to you on that 
because I want to make sure I don't misstate on the science 
that the career scientists used for that decision.
    Mr. Tonko. Please do so in rapid fashion. Did this 
specifically include the evidence of chlorpyrifos impairing the 
brain development of children and fetuses? Yes or no?
    Mr. Wheeler. I can't comment on the specific studies of--
the career scientists used for their determination. I wouldn't 
want to--I don't want to misspeak----
    Mr. Tonko. Well, these are important----
    Mr. Wheeler [continuing]. On behalf of the scientists.
    Mr. Tonko. They're important----
    Mr. Wheeler. I understand that.
    Mr. Tonko [continuing]. Questions, so----
    Mr. Wheeler. I take the recommendations from my career 
scientists on chlorpyrifos. They recommended that we continue 
with it----
    Mr. Tonko. Thank you.
    Mr. Wheeler [continuing]. While they undergo the longer 
review----
    Mr. Tonko. Thank you, sir. I just want to use my time here. 
In 2017, your predecessor Scott Pruitt announced that EPA would 
delay the 2015 proposed ban on chlorpyrifos citing regulatory 
certainty for industry as his reason. Mr. Wheeler, can you 
remind me the stated mission of EPA?
    Mr. Wheeler. Our mission is to protect public health and 
the environment.
    Mr. Tonko. Thank you, sir. Is there anywhere the Federal 
Insecticide, Fungicide, Rodenticide Act, FIFRA, where 
regulatory certainty for industry is named as an evaluation 
criteria for EPA's decisionmaking?
    Mr. Wheeler. We try to provide regulatory certainty for 
everything that we do, certainty for the American public, 
certainty for the community----
    Mr. Tonko. So is that a yes or no?
    Mr. Wheeler. Nothing specifically in that statue, but we 
try to provide regulatory certainty for all of our decisions, 
and we try to make all of our decisions open and transparent 
for everybody to see what scientists----
    Mr. Tonko. So I'm assuming----
    Mr. Wheeler [continuing]. Are basing their decisions on.
    Mr. Tonko [continuing]. That's a no?
    Mr. Wheeler. I'd have to go back to remember what the--
your--the wording of your exact question.
    Mr. Tonko. Well, is there anything within FIFRA where 
regulatory certainty for industry is named as an evaluation 
criteria?
    Mr. Wheeler. Not that I'm aware of, no.
    Mr. Tonko. So it's a no.
    With that, Madam Chair, I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Lucas.
    Mr. Lucas. Thank you, Madam Chair. I expect the theme of 
this hearing to be climate change with particular criticism 
aimed at the President's decision to withdraw from the Paris 
climate accord. My colleagues on the other side of the aisle 
seem to believe that without international agreements, 
burdensome regulations, or trillions of dollars spent on the 
Green New Deal it's impossible to protect the environment. But 
as I said in my opening statement, data tells us another story. 
The United States is a leader in reducing emissions, yet we 
remain one of the largest economies in the world.
    Administrator Wheeler, can you provide the Committee with 
the progress the EPA has made to date in cleaning up air, 
water, and land and what steps you plan to take to keep America 
as the gold standard of environmental protection around the 
world?
    Mr. Wheeler. Absolutely. We are the gold standard. 
Everybody else in the world looks to us. We--the EPA measures 
six criteria air pollutants. We've done that since 1970. Those 
six criteria air pollutants have been reduced 74 percent since 
1970. Our air is 74 percent cleaner. All six of the criteria 
air pollutants have been reduced during the Trump 
Administration. In 1970 again at that time on the water side, 
40 percent of our water sources did not meet EPA's standards on 
a day-to-day basis. Today, over 90 percent of our water supply 
meets the EPA's standards every single day. That doesn't mean 
to say that the remaining don't meet the standards, but they 
occasionally may have a blip because of a contaminant. But we 
work with the States and local governments to make sure that 
those are very small, short-lasting, and that we get back to 
having clean, safe drinking water for everyone across the 
country.
    Mr. Lucas. Administrator, do believe that we need a heavy-
handed, top-down approach to environmental regulation, or, 
based on the EPA's analysis, can a more flexible State-led 
program be just as effective in the long run?
    Mr. Wheeler. It can be. And we are working more 
cooperatively with the States than the previous Administration. 
At the--the Obama Administration on the air side issued 10 
times as many Federal implementation plans instead of State 
implementation plans as the three Administrations previous 
combined. We have been turning those FIPs (Federal 
Implementation Plans) into SIPs (State Implementation Plans) on 
the average of one per month. We also inherited 700 SIP 
backlog. We've already reduced that backlog by 400. So we are 
working cooperatively with the States to make sure that they 
are protecting the environment of their residents.
    Mr. Lucas. Administrator, what about incorporating new 
technology? I've heard from my constituents that it can be 
difficult to demonstrate new technologies for emissions control 
or monitoring to meet regulatory standards. Have you considered 
new ways to encourage the adoption of innovative technology 
solutions in your regulatory approach?
    Mr. Wheeler. Yes, and that's part of what we base for our 
decision on methane. We want to make sure that we're not 
stifling technological developments in that industry. Our--on 
natural gas--methane is natural gas. Natural gas has doubled in 
production since 1990. At the same time, the industry has 
reduced their methane emissions 15 percent. We want to make 
sure that we don't go forward with a regulation that is going 
to stifle innovative technologies that are capturing the 
methane emissions and making sure that we don't have those 
emissions.
    Mr. Lucas. Thank you, Administrator. I yield back the 
balance of my time, Madam Chair.
    Chairwoman Johnson. Thank you very much. Ms. Lofgren.
    Ms. Lofgren. Thank you. Mr. Wheeler, in June you wrote to 
Congress that Mary Nichols of the California Air Resources 
Board (CARB) was not negotiating in good faith with the EPA to 
reach a compromise on vehicle fuel emission and tailpipe 
standards and that she was lying when she told Members of 
Congress in the Energy and Commerce Committee that she had made 
a sincere counterproposal. But it's my understanding that the 
counteroffer that the CARB made is essentially the voluntary 
agreement that was reached with the automakers earlier this 
year announced on July 25. So it sounds to me like Ms. Nichols 
was telling the truth to the Energy and Commerce Committee.
    And I would like to ask unanimous consent, Madam 
Chairperson, to put into the record an article from the L.A. 
Times about this issue.
    Chairwoman Johnson. Without objection.
    Ms. Lofgren. Mr. Wheeler, would you be willing to share the 
briefing materials prepared by EPA staff that analyzed 
California's offer to EPA? Would you be willing to share that 
with this Committee?
    Mr. Wheeler. I'd have to--I'll certainly share what we can 
with the Committee. There may be deliberative documents 
involved in that. But I want to just make sure you understand 
that the offer that Mary Nichols gave us last fall, she said at 
the time that--although she was put it on the table, she said 
that the outgoing Governor did not sign off on it, the incoming 
Governor didn't sign off on it, the Attorney General who 
already threatened to sue us didn't sign off on it----
    Ms. Lofgren. Well, we are going to sue you.
    Mr. Wheeler [continuing]. Members of her board did not--
members of her board hadn't signed off on it. And she also said 
that----
    Ms. Lofgren. If I may, my time is limited because----
    Mr. Wheeler. Sure.
    Ms. Lofgren [continuing]. What she offered is the deal they 
basically made with the auto. And the same day that they did 
that, the Department of Transportation indicated that the 
Administration did not prevent manufacturers from building more 
efficient vehicles on a voluntary basis if they wanted to. So I 
think the threats that are being made by the Administration are 
really contradicted by the Department of Transportation's 
comment at that time.
    I'd like to also note that Senator Feinstein has sent a 
letter to the Attorney General pointing out that the--I really 
think it's an abuse of power on the part of the Department of 
Justice to try and threaten automakers who are reaching an 
agreement with the State I represent to deter other automakers 
from entering the same deal, but they're not disagreeing that--
with the other deals that are being made, for example, rear 
seat reminder systems that are being made. And that's not being 
challenged as an antitrust violation.
    So I just wanted to express my concern not only about the 
decision being--that was made here. I mean, California had more 
than 100 waivers in the last 50 years by both Democratic and 
Republican Presidents and--to achieve a standard that has made 
automobiles 99 percent cleaner than they would have been 
otherwise.
    The lawsuit that is going to be engaged in is going to--
you've created chaos here because the automakers are not going 
to know what to do. This is going to be tied up in court for 
the foreseeable future. And I would hope that you would take a 
look at the chaos that has been created for clean air but also 
in the auto industry by the actions that have been taken that 
are really unprecedented in the history of the Clean Air Act.
    And with that, Madam Chair, I yield back.
    Mr. Wheeler. It's important to remember that we're doing 
nothing to take away California's ability to set health-based 
standards for automobiles, only energy efficiency.
    Chairwoman Johnson. Thank you very much. Mr. Weber.
    Mr. Weber. Thank you, Madam Chair.
    Administrator Wheeler, I'm extremely interested in that 
last exchange regarding Mary Nichols. You were enumerating 
everybody that basically hadn't signed off. Would you go back 
through that list again and explain why that was?
    Mr. Wheeler. Certainly. What she put on the table was 
basically the Obama plan spaced out over one additional year. 
And she said that--although she's put it on the table for us, 
that the outgoing Governor--and this is right around the 
election last year in California. The outgoing Governor had not 
signed off on it, the incoming Governor hadn't signed off on 
it, the Attorney General, who already said he was suing us, had 
not signed off on the deal. And she is the Executive Director 
of CARB. She said that the board members of CARB had not signed 
off on it. So, you know, it really wasn't a deal. It really 
wasn't an offer that she could stand behind or that she had any 
authority apparently to make to us.
    I'd also point out that the deal that the Congresswoman 
mentioned with the four automakers, we haven't seen the 
specifics of that deal. Nothing has been released to the 
public, so I don't know if it's the same as what the CARB 
executive director put on the table last fall. I don't know if 
it's the same deal or not.
    Mr. Weber. So you would say that's a pretty good example of 
not negotiating in good faith?
    Mr. Wheeler. Yes, I would.
    Mr. Weber. I would agree with that.
    I want to segue and ask Administrator Wheeler, are the 
comprehensive regulatory reforms that you personally are 
undertaking at the EPA, which we appreciate, including policies 
such as the Affordable Clean Energy rule, Safer Affordable 
Vehicles rule, and Waters of the United States, WOTUS rule, are 
they driven by any change of any views on air and water 
science? Or are they instead driven by an effort to restore the 
statutory authority provided to the EPA via the Clean Air Act, 
the Clean Water Act, as well as other statutes?
    Mr. Wheeler. Both. We certainly use science in all of our 
regulatory decisions, but you're right. On the ACE (Affordable 
Clan Energy) rule, it replaced the Clean Power Plan, but the 
Clean Power Plan never took effect because the Supreme Court 
issued a historic stay, which showed that it was outside of the 
bounds of the Clean Air Act.
    On WOTUS, as soon as the Obama Administration moved forward 
with their WOTUS proposal, it was stayed by courts around the 
country. It was only in effect in 22 States. Twenty-eight other 
States were not following the Obama WOTUS proposal, which is 
why we had to withdraw it so that we could have one regulation 
for the entire country. We didn't think a patchwork approach 
would be useful for WOTUS.
    Mr. Weber. Well, we in Texas, particularly in my district, 
appreciate that. We really do.
    Despite the overall decline in the number of unhealthy air 
days since 2000, there was an uptick in the number of bad air 
days in some parts of the country last year. Is this because 
the EPA is rolling back environmental protections? Or how do 
natural events, dust storms, wildfires, variations in weather 
affect air-quality concentrations from year to year? How does 
that happen?
    Mr. Wheeler. It's both. First of all, you know, since 2000, 
we have strengthened the regulations so, you know, the 
regulatory determinations are tighter than they were. Plus 
there are a lot of naturally occurring events around the 
country that contribute to bad air quality. I was in Alaska 
last month and was--saw the smoke from the fires firsthand 
outside of Anchorage. There--the--with the wildfires in 
California, that contributes significantly to the poor air 
quality days across the West. Other fires do the same thing. 
This is why I really hope that the Forest Service, working with 
the States, can get a handle on these out-of-control wildfires, 
have more prescribed burns, try to clear out the underbrush so 
that we don't have these long-lasting fires that really are 
detrimental to public health.
    Mr. Weber. Well, I appreciate that, Mr. Administrator. And, 
Madam Chair, I thank you, and I'm going to yield back.
    Chairwoman Johnson. Thank you very much. Let me welcome an 
additional attendance of members of the Clean Air Force. 
Welcome.
    Mr. Lipinski.
    Mr. Lipinski. Thank you, Madam Chair.
    Administrator Wheeler, in 2016, researchers in EPA's Office 
of Research and Development updated the Integrated Risk 
Information System, or IRIS, value for ethylene oxide, which is 
known as EtO. In doing so, they determined the cancer risk for 
inhalation of EtO was 30 times higher than previously thought.
    In August 2018, EPA's scientists released the latest 
version of the National Air Toxics Assessment based on the new 
IRIS value. This revealed an elevated cancer risk in the 
communities around a commercial sterilization facility in 
Willowbrook just outside my district, a facility owned by 
Sterigenics. I not only represent families in the impacted 
communities; I also live there.
    Thanks to the State of Illinois, this plant is now closed, 
perhaps only temporarily. I've been calling on EPA to act 
quickly to protect not only the families in these communities 
around Sterigenics but those around facilities that use EtO for 
sterilization all around the country. We need the EPA to use 
the updated IRIS value for EtO to set a strong new Federal 
emissions standard that protects Americans all across our 
country from this dangerous carcinogen.
    I first wrote to you, then-Acting Administrator, on 
September 21, 2018, almost exactly 1 year ago. When will the 
EPA set a new standard for EtO to protect Americans all across 
our country?
    Mr. Wheeler. We are working on two different rulemakings to 
address EtO, and both of those are in the works. But we have 
been working hand-in-hand with both the local government, as 
well as the State. It was EPA that provided the monitors, the 
ambient air monitors, the modeling to determine what the impact 
was from Willowbrook. We worked with the State. They used our 
data to make the determinations that they did on that facility. 
And we are--we worked with the facility to make sure that they 
were installing better technologies to capture the emissions so 
that it does not get into the neighborhood. There are a lot of 
issues around EtO.
    Mr. Lipinski. Well, I want to make sure that--are you going 
to use the updated IRIS values? IRIS, according to the EPA's 
website, it says IRIS assessments are the preferred source of 
toxicity information used by the EPA. And I wanted to make sure 
that you're committed to using this updated IRIS value for the 
cancer risks for EtO when developing this new standard. Are you 
committed to that?
    Mr. Wheeler. We are using the IRIS assessment for our 
regulatory decisions. It's important to remember that the IRIS 
program is not a regulatory program, so we also have to make 
sure that we are following the regulatory requirements of the 
statute such as the Clean Air Act that we are using to set the 
standards for that facility for EtO.
    Mr. Lipinski. I just want to make sure that you're going to 
use that because there have been some arguments against it, and 
it's critical that that science is not ignored.
    Mr. Wheeler. We use all of our available science in making 
regulatory decisions, but again, the IRIS program is not a 
regulatory program.
    Mr. Lipinski. I want to close by reiterating a request from 
my neighbors in Illinois who would appreciate your 
participation in an October 2 townhall on ethylene oxide in 
Lake County. I firmly expect the EPA to do its job engaging 
with the public at this event. I appreciate the air monitoring 
around the facility in Willowbrook, but it is important that 
EPA set a standard to protect Americans from this dangerous 
cancer-causing chemical. EPA needs to--U.S. EPA needs to act 
quickly and decisively on this issue. Thank you.
    Mr. Wheeler. Thank you, Mr. Congressman, and I know you're 
also concerned about the Great Lakes. Last month, we announced 
first-ever Trash-Free Great Lakes Grant Program to help get the 
Great Lakes cleaned up.
    Chairwoman Johnson. Thank you.
    Mr. Lipinski. Thank you.
    Chairwoman Johnson. Mr. Babin.
    Mr. Babin. Thank you very much, Madam Chair.
    Administrative Wheeler, thank you for being here. A few 
weeks ago you commented on an often-overlooked provision of the 
Clean Air Act, section 115, an integral part of President 
Trump's decision to pull the United States out of the Paris 
Climate Agreement. You said, ``Another aspect that a lot of 
people gloss over is that under the Clean Air Act if we enter 
into an international treaty such as the Paris climate accord, 
if we fail to meet our targets, those are enforceable under our 
domestic laws.'' While this issue gets very little attention, 
this seems like a very big deal to me.
    For example, we know that advisors to Hillary Clinton's 
Presidential campaign supported invoking section 115 but 
recommended against mentioning it during the campaign because, 
I imagine, they thought that using an obscure provision to 
regulate the entire U.S. economy would not poll very well.
    I would like to enter into the record an article written by 
the Center for American Progress titled, ``How the Paris 
Agreement Supercharges the Clean Air Act,'' Madam Chair----
    Chairwoman Johnson. Without objection.
    Mr. Babin [continuing]. Which details exactly how far those 
on the far left would use Paris to impose overreaching climate 
regulations across the U.S. economy. Can you please elaborate 
on this threat from section 115 and how it might be used to 
circumvent the U.S. Congress?
    Mr. Wheeler. Certainly. First, I do want to just clarify my 
remarks from a few weeks ago. I didn't mean to suggest that 
that was one of the primary reasons President Trump used for 
withdrawing from the Paris climate accord. I actually wasn't 
with the Administration at the time, so I did not brief the 
President on the Paris climate accord. I know he cited trade 
issues----
    Mr. Babin. Right.
    Mr. Wheeler [continuing]. As well as the fact that we were 
treated differently from China and India and other countries. 
But I completely agree with you that section 115 could give--
and I think that the Center for American Progress paper on this 
is evidence of that, that there are certainly people that want 
to use that section of the Clean Air Act to allow third parties 
to sue the United States Government if they fail to meet treaty 
obligations and force them to then meet the treaty obligations. 
And the Paris climate accord is a treaty. It wasn't submitted 
to the Senate for ratification, but it still has the same 
ramifications of a treaty.
    Mr. Babin. Yes. Thank you very much. Also, has the EPA 
witnessed lower demand for ethanol following the granting of 
small refinery waivers over the last 2 years? And do other 
agencies besides EPA conclude that ethanol demand has not been 
impacted as a result of these exemptions?
    Mr. Wheeler. You're correct. Ethanol demand has not been 
impacted by the small refinery program. In fact, we've seen an 
uptick in ethanol over the last 2 years. We--so far this year 
the industry has produced more ethanol than they did at this 
point last year, and we do not see any demand destruction from 
the small refinery program on ethanol production.
    Mr. Babin. And other agencies you feel that have the same 
opinion?
    Mr. Wheeler. It's my understanding the Department of Energy 
has that same opinion.
    Mr. Babin. OK. Thank you very much, Administrator. And I'll 
yield back, Madam Chair.
    Chairwoman Johnson. Thank you very much. Ms. Bonamici.
    Ms. Bonamici. Thank you. Administrator Wheeler, I join many 
in the science community who are deeply concerned about the 
EPA's proposed rule titled, ``Strengthening Transparency in 
Regulatory Science.'' The proposed rule would impede if not 
eradicate the EPA's ability to fulfill its mission of 
protecting public health and the environment by limiting the 
scope of research that the EPA can consider in making 
decisions. As a cornerstone of its regulatory process, the EPA 
relies on peer-reviewed science, and the proposed rule 
perpetuates the incorrect notion that the science the EPA 
relies on is somehow hidden, and it's not. The information used 
by the EPA is not secret.
    I appreciate that your testimony acknowledged the need to 
issue a supplemental rule, but the proposed rule is an attack 
on the role of science itself at the EPA. So, if finalized, it 
would have chilling consequences for the EPA and for people who 
benefit from clean air and clean water.
    So, Administrator Wheeler, is the EPA's existing policy to 
consider scientific studies in the regulatory process even if 
the underlying data is not publicly available in a manner 
sufficient for independent validation? That's just--please yes 
or no, the existing policy.
    Mr. Wheeler. That data is not available to the public. We--
I believe that the regulated public communities need to know 
what the science is based behind our decisions.
    Ms. Bonamici. But is the existing policy to consider 
studies even if the data is not publicly available? Is that the 
existing policy?
    Mr. Wheeler. Yes, that is the existing----
    Ms. Bonamici. Thank you.
    Mr. Wheeler [continuing]. Policy.
    Ms. Bonamici. And have the Federal courts upheld the EPA's 
longtime policy regarding consideration of scientific data?
    Mr. Wheeler. I don't believe that the courts have 
specifically addressed that specific issue.
    Ms. Bonamici. Well----
    Mr. Wheeler. We've received over 600,000 comments on our 
proposal. We've reviewed those comments over the last year, and 
that's why I believe we need to go forward with a supplemental 
proposal before we finalize----
    Ms. Bonamici. Well, in footnote 3 of the proposed rule it 
says that the courts have at times upheld EPA's use of 
nonpublic data in support of its regulatory actions. So 
footnote 3 also says that the proposed rule acknowledges that 
the EPA has not consistently observed the policies underlying 
the proposal. Isn't that correct? The EPA is not----
    Mr. Wheeler. Yes.
    Ms. Bonamici [continuing]. In the past?
    Mr. Wheeler. Yes.
    Ms. Bonamici. Thank you. So the proposed rule represents a 
reversal of the EPA's position for decades regarding the 
consideration of scientific data. If the proposed rule is 
asserting that the Agency's previous position was incorrect, 
what evidence do you have to justify it?
    Mr. Wheeler. Well, again, I cut my teeth on the Right-to-
Know Act, and I believe that the American public has a right to 
know the science behind our regulatory decisions. And I think 
if we put that science out for everybody to see and understand, 
then there will be more acceptance of our regulatory decisions.
    Ms. Bonamici. And----
    Mr. Wheeler. And that is what is driving me on this 
question----
    Ms. Bonamici. And----
    Mr. Wheeler [continuing]. Because I believe that we should 
be transparent in everything that we do.
    Ms. Bonamici. And, Mr. Administrator, the basis of the 
proposed rule, I agree with the scientific community, is 
flawed. So before finalizing the rule of such significance, I 
urge the EPA to listen to scientific experts. So, yes or no, 
will the supplemental rule mentioned in your testimony be 
published prior to 2020?
    Mr. Wheeler. I was hoping it would be published prior to 
2020, but in my staff notes I'm told early next year. Things 
seem to take----
    Ms. Bonamici. And----
    Mr. Wheeler [continuing]. A little bit longer than I like, 
but we'll----
    Ms. Bonamici. And will----
    Mr. Wheeler [continuing]. Certainly publish the 
supplemental----
    Ms. Bonamici. I want to get a couple more questions in----
    Mr. Wheeler [continuing]. For public comment before we 
finalize it.
    Ms. Bonamici. Yes or no, will you commit to waiting for the 
conclusion of the Science Advisory Board's comprehensive review 
before you finalize the final rule?
    Mr. Wheeler. We certainly hope to have that. I specifically 
asked the----
    Ms. Bonamici. Yes or no?
    Mr. Wheeler. Yes. I----
    Ms. Bonamici. OK.
    Mr. Wheeler [continuing]. Specifically asked the Science--
--
    Ms. Bonamici. Thank you.
    Mr. Wheeler [continuing]. Advisory Board to look at----
    Ms. Bonamici. And----
    Mr. Wheeler [continuing]. The proposal.
    Ms. Bonamici. And will you commit to working with the 
National Academy of Sciences on the development of the proposed 
rule?
    Mr. Wheeler. I don't believe we've reached out to the 
National Academy of Sciences at this point.
    Ms. Bonamici. I hope that you will. And the----
    Mr. Wheeler. But, again, the science community is not 
unanimous on this. You said the science community is opposed to 
this. We had over 600,000 comments----
    Ms. Bonamici. I----
    Mr. Wheeler [continuing]. A lot of scientists----
    Ms. Bonamici. I understand, and I want to get----
    Mr. Wheeler [continuing]. Support for what we're doing.
    Ms. Bonamici [continuing]. Just another quick question. The 
proposed rule is inconsistent with the Agency's statutory 
obligation to use the best available science, as required in 
many statutes under your jurisdiction. Will the proposed rule 
retroactively apply to the EPA's existing standards and 
regulations?
    Mr. Wheeler. Our proposal did not retroactively apply, and 
there was still an exemption so that the Administrator could 
allow a study that was important to move forward even if that 
science wasn't available to the public if we needed to use that 
study for regulatory purposes.
    Ms. Bonamici. Thank you. My time is----
    Chairwoman Johnson. Thank you----
    Ms. Bonamici [continuing]. Expired. I will be submitting 
more questions for the record.
    Thank you, Madam Chair. I yield back.
    Chairwoman Johnson. Mr. Gonzalez.
    Mr. Gonzalez. Thank you, Madam Chair.
    Thank you, Administrator Wheeler, for being here. As you 
know, the Great Lakes are critically important for my home 
district in northeast Ohio, providing fresh water, recreation, 
and certainly economic growth to our region. It's hard to 
overstate the importance of this critical resource to northeast 
Ohio.
    I've co-sponsored legislation to fund R&D to assess the 
health of the Great Lakes fisheries, but I'm interested in the 
work the EPA is doing to protect the environmental health of 
the region. Can you provide an update on the Great Lakes 
Restoration Initiative, particularly recent efforts to reduce 
pollution from stormwater and excess nutrient runoff?
    Mr. Wheeler. Absolutely. And first, thank you, Congressman, 
for asking about the Great Lakes. As you know, I'm also from 
Ohio.
    Mr. Gonzalez. Yes.
    Mr. Wheeler. I keep saying this and nobody's corrected me 
so I'll keep saying it until I'm corrected. I believe I'm the 
only EPA Administrator to ever go swimming in the Great Lakes. 
I have an absolute love of the Great Lakes region and the Great 
Lakes themselves, and this summer, I visited our Lake Guardian 
research ship, which travels all five of the Great Lakes, has 
been doing it for about 30 years now, taking water samples, 
comparing them year over year to see the changes in the lake.
    Mr. Gonzalez. Fantastic.
    Mr. Wheeler. We are moving forward on nutrient reduction 
work. We put forward a proposal this past--not a proposal, a 
new policy this past spring to work on trading mechanisms with 
farmers to reduce the nutrient loading into the rivers and 
streams that flow into the lakes. We announced our Trash-Free 
Great Lakes Grant Program where we're trying to get the litter 
cleaned up out of the lakes, and we're moving forward on a 
number of fronts to get the lakes cleaned up.
    Mr. Gonzalez. Fantastic. And I certainly appreciate that 
work. Are there any emerging technologies that could be applied 
to reduce the type of pollution, and how can we support that in 
this Committee? Can you talk a bit about the technology side?
    Mr. Wheeler. Well, there is a lot of scientific research 
going on here. We do a lot of scientific research on the HABs, 
the harmful algal blooms. We have a number of different EPA 
labs around the country that are looking at specific issues and 
problems, including our Region 5 lab in Chicago for the Great 
Lakes. So there's a lot of scientific research going on, and 
our EPA researchers are at the forefront of that research 
worldwide.
    Mr. Gonzalez. Fantastic. And then shifting a bit, so the 
U.S. generates the largest amount of municipal solid waste per 
person on a daily basis. Now more than ever it's important that 
we rethink how we recover and repurpose the valuable materials 
that used to be considered waste. EPA has an important role to 
play by encouraging recycling and recovery. Can you describe 
how EPA is engaged to do this, and then how does this tie into 
the EPA's role in the Environmental Cooperation Agreement in 
parallel with the USMCA (United States-Mexico-Canada 
Agreement)?
    Mr. Wheeler. Thank you. Last fall, we held the first-ever 
Recycling Summit at EPA to take a look at the recycling crisis, 
which we actually have a recycling crisis----
    Mr. Gonzalez. Yes.
    Mr. Wheeler [continuing]. In our country today. We are also 
working aggressively on food waste. Food makes up the largest 
single contributor to municipal solid waste in this country, 
and we have to do something to reduce the amount of food going 
to our--to the waste sites.
    But the USMCA--this--the USMCA is the first-ever trade 
agreement from the U.S. that incorporates environmental 
provisions into the trade agreement itself. In NAFTA (North 
American Free Trade Agreement), the environmental provisions 
were in a side agreement. There were not part of the actual 
trade agreement. We also have the first-ever language in a 
trade agreement dealing with ocean plastic debris, which also 
helps us in the Great Lakes. So this is the first time that the 
strongest environmental protections ever included in a trade 
agreement are in the USMCA.
    Mr. Gonzalez. Fantastic. And with that, I will yield the 
balance of my time.
    Chairwoman Johnson. Thank you very much. Mr. Lamb.
    Mr. Lamb. Thank you, Madam Chairwoman, and welcome, 
Administrator Wheeler. Over here.
    Mr. Wheeler. Sorry.
    Mr. Lamb. You'll understand where I'm coming from here 
being from Ohio. I am from western Pennsylvania. I represent 
areas right along the West Virginia and Ohio border. And our 
part of the country has made incredible contributions over the 
years to the Nation's economy and I think national security 
from steel production to coal production, glass, all the things 
that Ohio and Pennsylvania and West Virginia have done.
    And I think the production of natural gas is the most 
recent example of that. And where I live it's everyone from the 
scientists who figured out this miraculous technology of going 
more than a mile underground and 2 miles sideways, much of 
which was developed in our national lab system, by the way. It 
was a public investment because of how good it is for us, to 
the pipefitters who build the pipelines, the heavy equipment 
operators, the truck drivers, even the--you know, you'd be 
amazed the businesses people made out of just making sandwiches 
for all these people in the last 15 years. It's been incredible 
for our area.
    But the thing is that people in western Pennsylvania know 
that all of that economic growth rests on one important 
contribution, which is that we have helped the United States 
emit less carbon in the last 15 years than it ever did before 
because of the switch from coal to natural gas. And that's a 
big part of why the economy will continue demanding this fuel 
going forward. And that if we do not stop leaking methane and 
we lose that climate benefit, this entire industry is 
threatened. It's about the environment, but it's about these 
people's jobs, all of these people that I just mentioned.
    People know that where I'm from, and that's why many of us 
were so surprised to see your comments about the reduction and 
elimination of the methane standards where you said just last 
month that you believe they were unnecessary and duplicative.
    So my first question for you is just a simple yes or no. Do 
you still believe that the methane standards are unnecessary 
and duplicative?
    Mr. Wheeler. The Obama methane standards. We put forward 
our own proposal last month and we're taking comment on it.
    Mr. Lamb. So you believe that the Obama methane standards 
were unnecessary and duplicative, is that correct?
    Mr. Wheeler. Yes.
    Mr. Lamb. You're--I'm quoting you, yes.
    Mr. Wheeler. Yes.
    Mr. Lamb. So, when you said that, I looked around to see 
what other people said, and I just wanted to share a couple of 
those things with you because the sources are kind of 
surprising. So one, for example, ``To maximize the climate 
benefits of gas, we need to address the Achilles' heel and 
eliminate, eliminate methane emissions.'' Did you read that in 
the press when it was out? Does that quote sound familiar to 
you? That was Susan Dio, the President of BP. It was no 
environmental activist.
    Similarly, ``We will continue to urge the EPA to retain--
retain--the main features of the existing methane rule.'' That 
came from a spokesman from Exxon.
    Gretchen Watkins, who runs USA operations for Shell, which 
is building a huge methane cracker plant in the middle of my 
district, said that ``Methane is a big part of the climate 
problem and frankly we can do more than we're already doing.'' 
She said, ``We don't usually tell governments how to do their 
job, but we're ready to break with that and say actually, we 
want to tell you how to do your job.''
    So BP, Exxon, and Shell all believe that the EPA's action 
to reduce and get rid of the existing methane rule is a bad 
idea. And it sounds like someone else when they testified in 
front of the U.S. Senate and said, ``Climate change is real, 
I'm concerned about it on a level of 8 or 9 out of 10'' and 
that ``part of the way the EPA was addressing climate change 
was through their methane program.'' Do you recognize who said 
that?
    Mr. Wheeler. It sounds familiar.
    Mr. Lamb. That was you.
    Mr. Wheeler. I thought so.
    Mr. Lamb. When you testified to the U.S. Senate to get this 
job you said that the methane program was a crucial part of 
eliminating greenhouse gases. You have changed, and it 
threatens the livelihood of people in this industry that I 
represent.
    Mr. Wheeler. I----
    Mr. Lamb. And so I will ask you--I will simply ask you--my 
time is up--reconsider. These families are depending on this 
industry and depending on the climate benefits that have come 
from it. We have to do it the right way. You are on the wrong 
side of both business and public opinion.
    Madam Chairwoman, I yield back.
    Mr. Wheeler. Sir, we don't do our regulations for big 
business. We take a look at the--all business including small 
and medium-size companies that are in this area. So we don't 
write our regulations to appease the large companies.
    Chairwoman Johnson. Thank you very much. Mr. Waltz.
    Mr. Waltz. Thank you, Madam Chair.
    Administrator Wheeler, thank you for coming.
    Mr. Wheeler. Thank you.
    Mr. Waltz. I want to talk to you today and discuss the 
Clean Water State Revolving Fund. The Clean Water Fund provides 
communities, as you know, with low-cost financing, and I think 
that's an important aspect of it. It's financing for water 
quality infrastructure projects. And it's a critical tool for 
Florida in addressing a number of our water challenges. There's 
a massive disconnect in this fund, Mr. Administrator. On the 
one hand, Florida has the third most significant infrastructure 
needs in the Nation according to the EPA's Clean Watershed 
Needs Survey, so third-highest needs, yet Florida is receiving 
the third-lowest in the country allotment, again, according to 
the EPA.
    It's a result of an antiquated formula, not the Agency's 
fault. It's from a 1987 law that Florida receives the third-
lowest allotment. EPA has acknowledged in a 2016 report to 
Congress that the Clean Water State Revolving Fund allotment 
that, quote, in the EPA's report ``Most States do not currently 
receive appropriated funds in proportion to their reported 
needs or their population, which has demonstrated the 
inadequacy of the current allotment.'' The report also states, 
quote, ``that weighting and factors that were used to establish 
the formula for the original allotment are not known.'' And the 
Congressional Research Service says the same thing. In fact, 
they said it's even difficult to guess how this formula came 
about in the 1980s. That's probably not a surprise to some 
people.
    Obviously, Florida's population has exploded. We're gaining 
1,000 people per day. This disconnect is unacceptable, given 
our need. So bottom line, Mr. Administrator, and I recognize 
this is a statutory issue. Do you agree that it's reasonable 
for Congress to relook at this 30-year-old formula, given this 
disconnect?
    Mr. Wheeler. I have to be careful. I need permission from 
OMB (Office of Management and Budget) before I, you know, 
endorse legislation. I will say when I worked in the Senate 
Environment and Public Works Committee we tried to change the 
formula three or four Congresses in a row, and my staff and I 
worked at trying to update it. We spent a lot of time, and we 
ran into a lot of roadblocks from States who would have done 
worse----
    Mr. Waltz. Yes.
    Mr. Wheeler [continuing]. Under the changes to the program. 
Will you----
    Mr. Wheeler. But----
    Mr. Waltz. Will you commit to working with me on this 
issue----
    Mr. Wheeler. Yes, I'd be happy to----
    Mr. Waltz [continuing]. As we look to reauthorize the 
program in next year's WRDA (Water Resources Development Act)?
    Mr. Wheeler. Yes, be happy to work with you on that.
    Mr. Waltz. All right. Great. And separately, this is 
National Estuaries Week. I want to thank you for the good work 
that the EPA is doing in administering the National Estuary 
Program. I have the Indian River Lagoon in my district. In July 
this Committee passed H.R. 335, the South Florida Clean Coastal 
Waters Act of 2019. The legislation established an interagency 
task force on HABs to really get some empirical data behind 
that issue. Will you submit for the record what the Agency is 
doing in reducing algal blooms and how you think your Agency 
can contribute to this task force?
    And in the interest of time, could you also submit for the 
record what the Agency is doing on coastal resiliency in 
helping States that have coastal resiliency problems with 
rising seas?
    Mr. Wheeler. Absolutely.
    Mr. Waltz. Thank you, Administrator.
    Mr. Wheeler. Thank you.
    Mr. Waltz. And, Madam Chair, I yield my time.
    Chairwoman Johnson. Thank you. Mrs. Fletcher.
    Mrs. Fletcher. Thank you, Chairwoman Johnson.
    Good morning, Administrator Wheeler. Thank you for being 
here this morning. I have quite a few topics to cover, so I 
hope we can move through this fairly quickly with our limited 
time.
    In June of this year the staff of the EPA Region 6 lab in 
Houston were informed that the lab would be shut down and the 
scientists and engineers would be relocated to the ORD lab in 
Ada, Oklahoma, to consolidate space. You touched on this issue 
a little bit in your remarks, but I remain concerned and, more 
important, my constituents are very concerned that this lab 
consolidation will lead to significant brain drain as many of 
the EPA employees may not be able to relocate, resulting in a 
loss of key technical expertise. This is an issue that has come 
up at my townhalls in Houston, so I think it's really 
important.
    I sent a letter to you with some of my colleagues in the 
Houston delegation on July 12 asking you to reconsider this 
closure, and I would like to know when we can expect a response 
to our July 12 letter.
    Mr. Wheeler. We'll try to get a response you as quickly as 
possible.
    Mrs. Fletcher. And, as I'm sure you know, Houston has 
experienced increasingly frequent and intense storms like 
Imelda that's happening right now, and all in the same space is 
arguably the world's largest petrochemical complex. And so 
there's a lot of risk in our region that we remain concerned 
about and want EPA, the scientists, on the ground there. And in 
fact, in some of these disasters the EPA scientists have really 
been another kind of first responder if you will that are there 
to protect the water and air quality and to inform the public.
    I assume you would agree with me that the public has a 
right to be informed about the dangers in the water and the 
air?
    Mr. Wheeler. Absolutely, but the scientists we would be 
moving to Ada, Oklahoma, are not our first responders. Our 
first responders will remain in Texas. Plus, we will have a 
small lab facility left in Texas behind. But we were directed 
by Congress to consolidate our space, reduce the size of our 
footprint. It was a 2016 legislation I believe, told us to get 
out of leased spaces and try to consolidate to GSA- (General 
Services Administration) or EPA-owned space. And the lab in 
Houston is--it's my understanding it is in very poor shape and 
would require a lot of government investment to bring that lab 
up to the quality of lab that the people----
    Mrs. Fletcher. Well----
    Mr. Wheeler [continuing]. In Region 6 deserve.
    Mrs. Fletcher. And I appreciate that, Administrator 
Wheeler, but it is my understanding that those employees who 
are staying will be relocated to another lab, so it seems that 
because there will be new space that is obtained that our 
request that the scientists remain in Houston on the ground to 
be able to perform testing and do things immediately is 
important.
    And, again, there's a larger concern that this speaks to 
about the overall concerns for brain drain across the country 
as folks are relocated. And it's no disrespect to my colleagues 
from Oklahoma. I'm just south of Oklahoma. But certainly in the 
world that we live in some of these scientists may have 
families who are unable to relocate either because of spouse's 
professions, because of children's commitments, because of 
medical commitments, whatever it is. So it is hard to relocate 
so many people. And what we have seen is that there has been a 
significant departure from the EPA over the last few years.
    And so do you agree--I assume you agree that it's essential 
that the EPA fulfill its mission to protect the environment and 
public health.
    Mr. Wheeler. Absolutely.
    Mrs. Fletcher. Yes. And do you agree with me that the loss 
of scientists to levels that we haven't seen since the 1980s is 
a concern?
    Mr. Wheeler. Absolutely. Forty percent of our workforce is 
eligible to retire over the next 5 years. I hired a new human 
resource manager the start of the spring and recruiting new 
scientists is a huge concern of ours.
    Mrs. Fletcher. Great.
    Mr. Wheeler. I actually interviewed the human resource 
manager. I'm told that EPA administrators don't typically do 
that. That's three or four levels below, but I wanted to make 
sure that we got the right person----
    Mrs. Fletcher. Good.
    Mr. Wheeler [continuing]. To help us guide the Agency.
    Mrs. Fletcher. Administrator Wheeler, I have limited time, 
so I wanted to get to one other question and then I will have 
some additional questions to submit for the record. But in our 
Transportation and Infrastructure Subcommittee on Water 
Resources and Environment hearing yesterday I asked your 
Assistant Administrator for the Office of Water David Ross for 
clarification on the EPA's justification to reverse the 2016 
decision to issue new rules to safeguard against the release of 
hazardous substances into local water bodies and drinking 
sources. He said it was rulemaking out of the Office of Land 
and Emergency Management that was not his program. Is it true 
that the Water Office is not involved in decisions regarding 
the release of hazardous substances into water bodies?
    Mr. Wheeler. They are involved, but it--in fact that 
particular regulation that you were referring to that we 
decided no additional regulations were needed, we have other 
regulatory programs that protect that, including under the 
water program under EPCRA (Emergency Planning and Community 
Right-to-Know Act) and under CERCLA (Comprehensive 
Environmental Response, Compensation, and Liability Act of 
1980). And if you don't mind, I'd like to submit--I don't know 
for the record or to you--a paper outlining what we're doing 
under America's Water Infrastructure Act that was signed by 
Congress last year that addresses this problem.
    Mrs. Fletcher. Thank you. I'll submit my additional 
questions for the record.
    And, Chairwoman Johnson, may I also submit the letter that 
we sent on July 12 for the record as well?
    Chairwoman Johnson. No objection.
    Mrs. Fletcher. OK. Thank you. I have exceeded my time, so I 
yield back. Thank you.
    Chairwoman Johnson. Thank you. We'll receive yours for the 
record as well. Thank you.
    Mr. Olson.
    Mr. Olson. I thank the Chair, and welcome, Administrator 
Wheeler. This hearing is called, ``Science and Technology at 
EPA.'' Every Member of this Committee, Democrat and Republican, 
demands the EPA's actions are driven by science and technology 
only. No politics should ever enter into your decisions. They 
should be subordinate to science and technology.
    I was here for all 8 years of President Obama's 
Administration. Over and over and over, the Administration let 
politics overtake science and technology. The best example hit 
my home region of Houston, Texas hard, ozone. As you know, 
Administrator, that's one of the six criteria pollutants under 
NAAQS (National Ambient Air Quality Standards).
    The last year of George W. Bush's Administration, science 
and technology said we can go down to requirement of .75 parts 
per billion for ozone. It took President Obama 8 years to put 
out the rules to comply with President Bush's science-based 
proposal.
    And then 1 year later in 2015 President Obama lowered those 
standards to .70. There was no science, no technology that 
justified that no, as you said, right to know for the public 
how they achieve that standard. And there's no way they can 
know because we hadn't gotten down to .75 yet.
    And so to your great credit the Trump Administration has 
addressed the backlog of SIPs, as you mentioned, gone down from 
700 to 400. Now you have looming a new ozone standard put out 
by 2020. My question is are you on track to put those standards 
out, and, most importantly, using science and technology? When 
you look at ozone we can't control because you know and I know, 
the whole world knows, over half the ozone that comes from 
America comes from uncontrolled sources, sources like China, 
like our neighbors south, Mexico. So how do you take those into 
account with these new ozone standards?
    Mr. Wheeler. Yes, thank you. Thank you, Congressman. I 
appreciate the question. Yes, we are on track. We are reviewing 
both the ozone and PM (particulate matter) NAAQS at this point. 
We plan to go final with both of those by the end of next year. 
For ozone it will be the first time that we have completed that 
within the statutory 5-year requirement. The EPA has always 
taken longer to review these NAAQS, and we are committed to 
getting them done in the statutory timeframe of 5 years, which 
is required under the Clean Air Act.
    It's important to remember, though--and we--I'm taking a 
lot of criticism in the press from a lot of different people 
saying that we're going too fast. Congress required us to 
update it every 5 years. That's what we intend to do. When we 
finish the 5-year review, the next 5-year review starts the 
very next day. So this is a never-ending review of the NAAQS 
standard from both ozone and PM, all six of the criteria 
pollutants. So it is our intention to get it done on time and 
then to start the next 5-year review the very next day.
    Mr. Olson. I had a bill that gave you authority to go for 
10 years if you not demanded but if you needed that time 
because of all the hassles. Would that be a good bill to have? 
It got through the House twice, dropped the ball in the Senate, 
but how about give you the flexibility. Is that something you'd 
like? I'm sure you would.
    Mr. Wheeler. Well, again, I can't endorse specific 
legislation. I think having more flexibility is always a good 
thing in general. And again pointing out that the Agency has 
never completed it in 5 years before, which is one of the 
reasons why we had to disband the subcommittees and I'm taken 
as--I know I've received questions from this Committee about 
the subcommittees and reinstituting them. We can't reinstitute 
the subcommittees and meet the 5-year requirement under the 
statute.
    Mr. Olson. One final accolade----
    Chairwoman Johnson. Thank you very much.
    Mr. Olson [continuing]. From back home. Hurricane Harvey 
hit what's called the San Jacinto Waste Pits very hard. These 
are waste pits that cover very hazardous material dioxin from 
paper manufacturing right there in the area. They came loose 
during Hurricane Harvey. That is the chemical that got the 
superfund started, Love Canal. You guys stepped up to the plate 
quickly and said we will get all that chemical, all of that 
dioxin out of the water, so thank you, thank you, thank you. 
You saved lives by acting so quickly. I yield back.
    Mr. Wheeler. While I appreciate the thanks----
    Chairwoman Johnson. Thank you very much.
    Mr. Wheeler [continuing]. I do have to say that I'm recused 
from that particular----
    Chairwoman Johnson. Ms. Stevens.
    Mr. Wheeler [continuing]. Superfund site, so I was not 
involved in any of the decisions. I don't want to leave the 
impression that I was involved in something that I was recused 
from.
    Ms. Stevens. Mr. Administrator, the purpose of this hearing 
is indeed to review the science and technology activities at 
the Environmental Protection Agency. And as the Subcommittee 
Chair for this Committee on Research and Technology, I take 
great interest with this topic. And you might be aware that we 
are facing a conundrum with our Nation's recycling. The U.S. 
still only recycles 9 percent of its plastic. In 2018 China 
banned the import of most U.S. plastics collected for recycling 
because many were mixed with nonrecyclable waste and 
contaminated. And we have heard from municipal leaders across 
this country and I've heard from many in my home district in 
southeastern Michigan.
    The Resource Conservation and Recovery Act of 1976 named 
the EPA as the lead Agency on a national effort to recover 
valuable petroleum-based resources that were filling our 
landfills. So the question I have for you is, why is the EPA 
not fulfilling its statutory responsibility to lead Federal 
efforts on crosscutting research and development and innovation 
needed to address the Nation's plastic recycling challenges and 
create jobs?
    Mr. Wheeler. We are. We held the first-ever Recycling 
Summit last year at EPA headquarters. We brought in people 
involved in the entire recycling chain from the people who 
produce the raw materials to the packagers of products to the 
manufacturers of the products that they package to the waste 
collectors, recycling collectors, all the way to the end of 
this chain, value chain of people who take those products and 
turn them into useful products.
    We have a recycling crisis right now, and we charged them 
last year with four items to go off and work on. We've been 
working with them throughout the year. We're going to have the 
second Recycling Summit this fall on National Recycling Day. In 
the past, EPA only put out a press release announcing Recycling 
Day. We're actually bringing people in and trying to solve the 
recycling crisis that we currently face.
    Ms. Stevens. And so how do you see the EPA helping States 
and municipalities improve recyclable materials and manage 
their recyclable goods? Are they involved in these 
conversations? Were they at your summit? Are you working with--
--
    Mr. Wheeler. Yes, we had industry, we had local 
governments, we had the waste collectors, and in fact it would 
be held on National Recycling Day, which I believe is right 
around November 15. If you would like to come to our summit and 
address them, we'd be happy to extend an invitation to you. But 
this is, I think, a very important issue.
    I don't normally compliment the Atlantic Monthly, but they 
did a pretty good piece back in February on the recycling 
crisis that this country faces in large part because China quit 
accepting recycled material. And we don't have enough products 
for material to go into.
    My fear is that people--average citizens think that if they 
separate their recycled material from their trash in the bins 
at the end of their driveway that the problem is solved, and 
that is not solving the problem.
    Ms. Stevens. Well, we're hoping that my appropriation to 
fund a national recycling strategy through the EPA will get 
passed into law and give you additional dollars and, you know, 
appreciate your recognition of this challenge and certainly 
what it means.
    I'd also like to encourage you to look at some of the 
economic data that can be collected for the recycling industry 
given that that hasn't been done in 12 years.
    And I will also give you credit for immediately responding 
to the letter that I sent your agency about recycling and look 
forward to additional dialog and potentially a summary of the 
conference that you had last year. Thank you.
    Mr. Wheeler. Thank you.
    Ms. Stevens. Madam Chair, I yield back the remainder of my 
time.
    Chairwoman Johnson. Thank you very much. Mr. Rooney.
    Mr. Rooney. Thank you, Chairwoman. Administrator Wheeler, 
I'd like to also urge you to review your rescission of the 
Obama methane and VOC (volatile organic compound) regulations. 
And in light of that little colloquy there with Congressman 
Lamb would suggest that you might leverage the leadership of 
Exxon, BP, and Shell to establish a level playing field and 
bring up the smaller competitors like companies that I'm 
involved with that should comply with that stuff and can do it 
if you help level the playing field.
    The other thing is you were good enough to send down Mary 
Walker from EPA Region 4 to participate in our Crisis of 
Harmful Algal Bloom conference, and she was super helpful and 
offered a lot of insight about the voluntary reporting system 
and some of the septic and water nitrogen problems that we're 
seeing. So I'd like to see if you have any further comment. 
This is a critical issue for Ohio and Michigan, but it's also a 
really critical issue for southwest Florida. Thank you.
    Mr. Wheeler. It is, and we are working on both those areas 
on the methane. It's important to remember that methane is 
actually the product that they're--that the natural gas 
companies are selling. They already have an incentive to not 
leak it. We want to make sure that our regulatory approach does 
not stifle innovation and stop companies, small, medium, and 
large, from creating innovative new ways to approach the issue 
to capture the methane and make sure that they're not leaking 
the methane, which is why we're tying the new proposal to the 
VOC emissions, so VOC emissions will go down and, as a side 
benefit, methane emissions will also go down.
    But the natural gas industry has doubled since 1990, and 
they've reduced their methane emissions 15 percent, and we want 
to make sure that our regulatory program does not get in the 
way of innovation----
    Mr. Rooney. I understand that. I'm involved with----
    Mr. Wheeler. Yes.
    Mr. Rooney [continuing]. $2-$3 billion gas producers in the 
Permian----
    Mr. Wheeler. Yes.
    Mr. Rooney [continuing]. And I'm just saying they could use 
your steady hand to raise the bar and create a better platform 
for medium and small companies who care about this and will pay 
the money to capture the methane versus the unscrupulous 
companies that won't.
    Mr. Wheeler. Yes. And we will. Thank you.
    Mr. Rooney. Thank you.
    Mr. Wheeler. And on the HABs, we're definitely--and I'm 
glad Mary was able to go to the--to your conference in Florida 
on this. It is certainly an issue that we're looking at across 
the board on several of our research labs, including our main 
research lab in Research Triangle Park is intimately involved 
with this issue. We're doing groundbreaking research trying to 
identify where the problems are before they occur. We're trying 
to identify what are the symptoms for lack of a better word of 
what will cause an outbreak in a water source and to try to 
make sure that we're safeguarding not just drinking water, 
which is the most vital--of vital importance here but also 
recreational waters.
    Mr. Rooney. Yes, our HABs are so bad----
    Mr. Wheeler. It's hurt a lot of areas.
    Mr. Rooney [continuing]. Down there----
    Mr. Wheeler. Yes.
    Mr. Rooney [continuing]. We're well beyond preserving 
drinking water.
    Mr. Wheeler. Right.
    Mr. Rooney. You can even get near that stuff without sinus 
problems. And we really appreciate the research and the early 
warning system that Mary talked about.
    Mr. Wheeler. And our career scientists at the Agency and a 
number of our labs are doing groundbreaking research in this 
area that is second to none worldwide.
    Mr. Rooney. Thank you, sir. I yield my time.
    Chairwoman Johnson. Thank you very much. Mr. Sherman.
    Mr. Sherman. Thank you. I know you've been quizzed about 
the website, but let me just ask you a personal question. Do 
you believe that climate change is occurring and is 
substantially human-caused?
    Mr. Wheeler. I certainly believe it's occurring, and I 
believe that man is certainly contributing to it, which is why 
we are aggressively addressing it, why we moved forward with 
our ACE regulation this summer, why we went forward with our 
methane, and why we are finalizing our CAFE (Corporate Average 
Fuel Economy) proposal. We want to make sure that we are 
addressing climate change, and we are addressing it.
    Mr. Sherman. OK. I want to focus on methane. I personally 
live just about as close as anyone to S-25, the well that 
spewed forth the largest methane leak in the history of 
America, I believe in the history of the world in Porter Ranch, 
California.
    Now, methane has an effect on global warming, roughly 87 
times as potent as carbon dioxide in warming the planet. But 
that's the harm if it's pure methane. But what's being stored 
in Porter Ranch and what is being piped around the country is 
not always pure methane. It's methane mixed with volatile 
organic compounds and the mercaptan that gives it its smell. So 
8,000 families were evacuated in my area for months. The health 
effects still continue.
    So I was a bit concerned when your Agency proposed a rule 
to eliminate Federal requirements that oil and gas companies 
install technology to detect and fix methane leaks from wells, 
pipelines, and storage facilities. Millions of tons of methane 
and inevitably with those volatile organic compounds and with 
the mercaptan are leaked, vented, and otherwise released into 
the atmosphere.
    I believe in your rollback your Agency acknowledged that 
the rollback will degrade air quality and are likely to 
adversely affect the health and welfare. Why shouldn't oil and 
gas companies be required to detect and monitor natural gas 
leaks?
    Mr. Wheeler. They are detecting and monitoring natural gas 
leaks, and we are targeting VOCs. And when you target VOCs, you 
also have the side benefit that is also a target of the methane 
reductions as well. The Obama Administration in their methane 
proposal expanded the source category without proper Clean Air 
Act procedures, so we----
    Mr. Sherman. Well, I'm----
    Mr. Wheeler. That was what we rolled back was the expanding 
of the industry.
    Mr. Sherman. Well, now, this Congress, in light of the 
Porter Ranch blowout disaster, passed a law requiring that we 
have national natural gas storage safety regulations by--I 
believe the date was the middle of last year. PHMSA (Pipeline 
and Hazardous Materials Safety Administration)--and I realize 
this isn't under your direct Agency, but you can publish 
regulations on your own in addition to what we require of 
PHMSA--said that they're in compliance because they published 
regulations by the deadline under the Obama Administration and 
then withdrew them. So Congress wrote a law saying you've got 
to have regulations, as of the middle of last year, and we have 
no regulations. Do you think it's appropriate for the Executive 
Branch to take a law that says you must regulate something and 
say, well, we regulated it for a day and then we withdrew the 
regulation so we're in compliance?
    Mr. Wheeler. I do not know the history or background on 
that. I don't really want to comment on another agency's 
regulations. Our proposal----
    Mr. Sherman. Can we count on--given the effect this has had 
on children, on people, on cancer, can I count on you to use 
your power to regulate natural gas storage safety?
    Mr. Wheeler. And that is what I believe we are doing with 
our new methane regulation that we just put out for public 
comment. We're taking comments on it right now. We're targeting 
VOCs, which also address methane. And I welcome comments from 
the public before we go final with it--with a regulatory 
decision.
    Mr. Sherman. I would hope that you would at least go as far 
as the American Petroleum Institute's recommended best 
practices. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Cloud.
    Mr. Cloud. Thank you, Chairwoman. Thanks for being here 
today. I'd like to first start off by saying I've talked to 
number of people in my district--we have industry, we have 
agriculture--who appreciate the EPA's new tone if I can say 
that, in the sense of understanding that the people working in 
these industries and districts are also living in them and care 
very much about our environment and then having an EPA that 
works with them as a way to try to find a way to yes as opposed 
to looking for a reason to say no, keeping in mind all the 
necessary causes to ensure our environment is protected.
    In light of that, I am encouraged by the fact that the 
proposed budget was actually less than what we've spent in the 
past. There's a tendency up here to define success by how much 
money we're spending on something as opposed to the actual 
outcomes of proposals or projects or legislation. Could you 
speak to some of the decisionmaking process that went into 
proposing a budget that came under cost of last year and how 
you balance those priorities of making sure that the EPA is 
doing its job and that we're spending our money wisely in light 
of a $22 trillion debt?
    Mr. Wheeler. Absolutely. For the most part, the programs 
that we recommended be reduced or eliminated were voluntary 
programs of the Agency and not critical to the statutory 
authorities that we have. In other words, programs that had 
grown over time at the Agency but were not authorized by 
Congress. We still put forward some new proposals for new 
funding. The new AWIA Act (America's Water Infrastructure Act 
of 2018) that passed Congress last year but Congress did not 
fund for 2019, we did request funding for that. We believe it's 
a very important program to address some of the water quality 
issues in particular for small and rural water systems and 
medium-sized systems around the country. So we did ask for 
additional funding for that.
    We also asked for $50 million for a children's health 
program for safe schools. We have a lot of different programs 
at the Agency that address different aspects of environmental 
issues at schools, but they're kind of disjointed. And what we 
want to do is bring those all into one program. And we asked 
for $50 million so that we can go out and work with the States 
and local governments to do site-specific recommendations on 
how schools can become healthier for the children who go to 
school in those buildings. There are different issues with a 
number of schools around the country, and we want to make sure 
that the children have a healthy education.
    Mr. Cloud. Following up on that a bit, earlier this year, 
you proposed the EPA developing rules that require a cost-
benefit analysis of the new regulations again with the 
understanding that we have a responsibility to manage the 
resources both of creation and of the taxpayer dollar. Could 
you speak to any progress being made on that rule?
    Mr. Wheeler. Certainly. We put that out, I believe it was 
last year, for notice and comment. We received over 3,000 
comments. I was actually surprised. I thought we would get as 
many for the science transparency rule, but for the science 
transparency we received over 600,000 comments, for the cost-
benefit only 3,000. What we proposed, though, was one 
regulation to apply to all of EPA's regulations for cost-
benefit.
    What we have decided to do in reviewing the comments--and 
again, both for science transparency and this--we took a hard 
look at the comments that we received from the different people 
commenting, and we decided instead of one regulation to try to 
mandate cost-benefit analysis across all of our statutory 
programs, we're going to go statute by statute instead and 
issue a regulation under each of our statutes. So the first one 
will be under the Clean Air Act.
    We hope to have that proposal out by the end of this year, 
but it will require a cost-benefit analysis for all Clean Air 
Act regulations going forward. And then we will systematically 
go through each of our statutes and do an individual cost-
benefit requirement for each statute tailor-made for the 
statutory authorities under each of the statutes.
    Chairwoman Johnson. Thank you very much.
    Mr. Cloud. Thank you.
    Chairwoman Johnson. Mr. Cohen.
    Mr. Cohen. Thank you, Madam Chair.
    And, Mr. Wheeler, I appreciate your being here. I've been 
disturbed, alarmed at several actions or inactions that have 
been taken at the EPA under your leadership. I'm sorry to say 
that, but it's true. I'm very concerned about how often you 
have ignored apparently your own professional scientists 
seemingly at the expense of people's lives in favor of profit 
companies and private profits. You've sidelined your 
scientists, gutted the 2015 coal ash rule, rolled back Clean 
Water Act  protections, weakened the mercury emissions rule, 
and rescinded the Clean Power Plan. These are all disturbing.
    And in my city of Memphis we have had coal ash collected at 
our steam plant, and it's--possibly could end up in the waters 
of our wonderful artesian water wells and threaten our drinking 
water. The mission at EPA is to protect human health and the 
environment, but it doesn't seem that that's been the 
direction.
    On asbestos, we also have a problem. And in May I sent you 
a letter with 34 of my colleagues after learning that the EPA 
disregarded the advice of its own scientists and lawyers by 
issuing a rule that restricted but did not ban asbestos. In a 
memo written by your own staff on August 2018 they stated 
rather than allow for any new use of asbestos, the EPA should 
seek to ban all new use of asbestos because of the extreme harm 
from this chemical substantially outweighs any benefit and 
because there are adequate alternatives to asbestos.
    Yet on April 17, 2019, the EPA issued a new rule that did 
not ban asbestos outright, as your own scientists recommended. 
I find this incredibly concerning and extremely peculiar that 
the EPA would cede its own experts' advice on banning asbestos, 
a known human carcinogen that has killed millions of people 
over the last several decades. A recent study of research has 
shown that asbestos-related disease caused 39,275 deaths in the 
United States annually. That's more than double the previous 
estimate of 15,000 deaths per year. Additionally, at least 55 
countries have banned asbestos completely.
    Yet in response I received from your office, I was informed 
that the EPA cannot ban asbestos until a risk evaluation is 
completed and an unreasonable risk is determined. When, sir, 
will this risk evaluation be undertaken and completed? And is 
the death of over 39,000 people a year not considered an 
unreasonable risk?
    Mr. Wheeler. First of all, we have done more on asbestos 
than any Administration since the George H.W. Bush 
Administration. We are moving forward on asbestos under the new 
TSCA (Toxic Substances Control Act) regulation, which is the 
law that Congress gave us to ban chemicals. That is a 2- to 3-
year process that Congress set up for us.
    In order to fill in the gap in the meantime, while we're 
working through the asbestos under the TSCA regulation, we put 
out a significant new use rule, which puts forward--which does 
not allow any new uses of asbestos to go forward without having 
first come to EPA. So we plugged a loophole that would have 
allowed people to import asbestos products from other countries 
such as Russia. So we have done more to stop asbestos and to 
ban asbestos than any Administration has done since the George 
H.W. Bush Administration----
    Mr. Cohen. Let me interrupt you for just a second because 
time is precious.
    Mr. Wheeler [continuing]. In the late 1980s.
    Mr. Cohen. That just means you did more than President 
Obama. And while President Obama----
    Mr. Wheeler. Again----
    Mr. Cohen [continuing]. Is a great guy, that's not--you 
know, be stronger than one person is not a great deal.
    But let me ask you the same question.
    Mr. Wheeler. No, no----
    Mr. Cohen. When will the risk evaluation be completed?
    Mr. Wheeler. It--under the process set up by Congress under 
TSCA, it's a 2- to 3-year process. We included asbestos as one 
of the first 10 chemicals that we are addressing. We did more 
than the George W. Bush Administration, than the Clinton 
Administration, than the Obama Administration. We've done more 
on asbestos than anybody else.
    Mr. Cohen. Thank you, sir, I appreciate that. I have been 
affected closely by this. Warren Zevon was my best personal 
friend, and he found out he had mesothelioma. He died within 
about a year of finding it out. That caused his death. There 
was nothing you can do with mesothelioma. You're dead. And it 
was caused from probably something he experienced as a child in 
an attic breathing in some air.
    So I'm concerned about it. I hope you will get your study 
done in the soonest time possible. Too many lives have been 
taken by this harmful carcinogen, and your Agency can do 
something about it. Thank you, sir----
    Mr. Wheeler. And we are.
    Mr. Cohen [continuing]. And I appreciate your work.
    Mr. Wheeler. Thank you.
    Chairwoman Johnson. Thank you. Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Madam Chair, and thank you 
for being here.
    I wanted to applaud your Administration and your efforts 
with regard to repealing the WOTUS rule, the erroneous, 
burdensome WOTUS rule, and your efforts to clearly define 
navigable waters in a commonsense form. I'm concerned that the 
regulatory process alone may not be enough to prevent future 
Administrations from attempting the same overreach as the Obama 
Administration did with their rule. I've introduced legislation 
that clarifies the definition of navigable waters.
    But I wanted to ask you, it would be nice if it didn't take 
an act of Congress, but do you think that even with the rule 
that you've put in place, Congress, congressional action to 
refine the definition is necessary with regard to what's 
coming?
    Mr. Wheeler. Again, I can't endorse specific legislation. I 
will say, again, when I worked in the Senate as a staffer we 
worked on trying to define Waters of the U.S. through multiple 
Congresses.
    You know, the original Clean Water Act definition in the 
1970s said navigable waters, and it has been expanded a lot 
over the years by Supreme Court decisions. So what our 
regulation--our proposal does--we've not finalized our new 
definition. We hope to finalize it this winter. But what our 
proposal does is follow the Clean Water Act, as well as the 
Supreme Court cases to provide what I hope will be a working 
definition so that anybody--any property owner can stand on his 
or her property and be able to tell for themselves whether or 
not they need a Federal permit without having to hire an 
outside lawyer or consultant to tell them whether or not they 
have a Waters of the U.S. on their property.
    Ms. Herrera Beutler. Absolutely.
    Mr. Wheeler. That's my overarching goal for the new 
definition.
    Ms. Herrera Beutler. And we support you in that.
    Mr. Wheeler. Everybody should understand what the 
definition is.
    Ms. Herrera Beutler. In addition, they shouldn't have to 
spend upwards of $275,000 per permit and wait up to 800 days to 
get that permit per body of water.
    Mr. Wheeler. Yes.
    Ms. Herrera Beutler. In addition, Washington shellfish 
growers on the Pacific Coast are struggling to find a solution 
for ghost shrimp. This industry produces more than a quarter of 
our Nation's oysters and provides thousands of jobs in rural 
areas like my district.
    Now, the Washington State Department of Ecology, it's not 
you all, but they do administer under the EPA. They're also the 
State Administrator for the Feds. They've been very unhelpful. 
They've reversed their original approval denying a permit to 
spray a widely used pesticide that would've helped the growers 
manage this problem.
    And my question is this. Basically, I'd like to understand 
what your role is with regard to the State agencies? And would 
you be willing to meet with me or my office to help us find a 
solution to preserve this vital industry?
    Mr. Wheeler. I'd be more than happy to meet with you and 
your office to try to help you with this issue, absolutely.
    Ms. Herrera Beutler. OK. Thank you. I appreciate it.
    Mr. Wheeler. Thank you.
    Ms. Herrera Beutler. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. McNerney.
    Mr. McNerney. I thank the Chair, and I thank the 
Administrator for appearing this morning.
    The EPA's Science Advisory Board met earlier this year to 
discuss which of the Agency's actions would benefit from their 
science review. Specifically, they mentioned the rulemaking to 
establish light-duty vehicle greenhouse gas emissions standards 
and the corporate average fuel economy would, quote, ``not 
warrant further review provided the EPA and the California Air 
Resources Board agree on a rule harmonized across the United 
States. If, however, the EPA and CARB cannot agree on a 
harmonized rule, then the board is ready to review pertinent 
scientific data in the different rules.'' That's a quote.
    At the time, the EPA would not confirm to the SAB, the 
Science Advisory Board, that talks with CARB broke down. Those 
were not acknowledged. However, your Agency will be revoking 
California's vehicle emissions standards waiver, a move without 
precedent that prioritizes polluters over public health and the 
wishes of the auto industry itself. It appears that this action 
is a malicious attempt to undo a popular commonsense Obama-era 
rule.
    Given the nonresponse from the EPA and concerns about the 
underlying science used to back deregulation of the SAB did 
decide to review the rule. Please answer with a yes or no. Do 
you support the role and expertise of the SAB can provide to 
assess underlying science backing regulatory actions?
    Mr. Wheeler. Yes, I do.
    Mr. McNerney. Thank you. Yes or no, will you commit to 
cooperating with the SAB's review of the proposed rule to 
revoke the California's vehicle emissions standards?
    Mr. Wheeler. We want to make sure that the Science Advisory 
Board is reviewing scientific issues and scientific questions. 
I believe they are reviewing the rule, and we certainly welcome 
anyone's input, but we are in the final stages of--we just 
released step 1 this morning of SAFE, and we will be releasing 
step 2 in the coming weeks.
    Mr. McNerney. So, in other words, you're not going to be 
cooperating with the SAB's review of the proposed rule?
    Mr. Wheeler. We cooperated with the----
    Mr. McNerney. And I asked you again. This was asked to you 
earlier. Will you commit to not finalizing the proposed rule 
until the SAB has had time to complete its review?
    Mr. Wheeler. No, we will----
    Mr. McNerney. Will you make that commitment?
    Mr. Wheeler. No, we will not wait for that. I don't believe 
at this point they're looking at specific science questions 
within the regulation. You know, it's interesting----
    Mr. McNerney. That's an opinion that's not shared across 
the board, Mr. Wheeler.
    Mr. Wheeler. I understand that. It's interesting during the 
Obama Administration the Science Advisory Board wanted to 
review the Clean Power Plan, and Gina McCarthy told them no, 
that there were no scientific issues in the Clean Power Plan.
    Mr. McNerney. So you're saying two wrongs make a right?
    Mr. Wheeler. No, I'm just saying that sometimes the Science 
Advisory Board wants to get outside of scientific issues. We've 
asked them and we have also committed across the board----
    Mr. McNerney. So why is it called a Science Advisory 
Board----
    Mr. Wheeler [continuing]. That we will be briefing them----
    Mr. McNerney [continuing]. If they're getting outside of 
science opinion?
    Mr. Wheeler [continuing]. On all of our major regulations 
on a going-forward basis. The CAFE standard was proposed last 
December. So as, for example, the methane, we will be briefing 
the Science Advisory Board on our methane proposal and seeking 
their input for it. But on a going-forward basis, we are asking 
the Science Advisory Board to review our regulations as they 
come out for public comment.
    Mr. McNerney. Well, thanks for your opinion, Administrator. 
It appears that your Agency has been dismissive of the Science 
Advisory Board and timed to avoid input from the board on this 
action. And nothing you've said today changes that conclusion. 
I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Marshall.
    Mr. Marshall. Thank you, Chairwoman, and good morning, Mr. 
Administrator Wheeler. Thanks for coming today.
    First of all, on behalf of my farmers and ranchers, thanks 
for all the great work you have done and your office has done 
for those farmers and ranchers. I want to applaud you for 
giving us a sorghum oil pathway to diesel, for getting my 
farmers and ranchers some relief on the Waters of the U.S. And 
thank you on behalf of all the corn farmers in America. Thank 
you for giving us E15 year-round.
    I want to kind of continue down this biofuels pathway and 
just get a quick thought from you on E30. From what I 
understand, E30 has about 60 percent less emissions through a 
tailpipe. It's usually about 20 cents less per gallon at the 
pump and maybe has a little bit better gas mileage. Are you all 
looking into E30 and any thoughts on the future of E30?
    Mr. Wheeler. Well, we just completed E15, and right now, 
we're looking at the overall RFS (Renewable Fuel Standard) 
program. We look at all blends of ethanol, so we're looking 
also at E85. I don't know that we're specifically looking at 
E30 or not, but I can certainly get back with you to let you 
know if any--if our scientists are in fact reviewing E30.
    Mr. Marshall. Thank you. And thank you for looking at the 
E85. I'm hearing lots of good words out there on the streets 
from the people who are using it as well.
    I guess one of our biggest concerns back home is the small 
refinery exemptions. And the question I get from farmers is, 
how do you define what a small refinery is? And I understand 
Frontier Refinery and where I grew up in El Dorado, that's a 
small refinery. Coffeyville, Kansas, has a small refinery. How 
do you determine what's a small refinery, who really needed the 
exemptions versus some of the others?
    Mr. Wheeler. Well, the definition of small refinery is in 
the statute itself, and it's based on barrels of oil produced 
at the refinery. But it's--I do want to just--there is a 
misperception in a lot of areas. It's not the size of the 
corporate parent. It's the refinery itself. It's not the 
refiner. So, for example, a very large company can own a small 
refinery. The Department of Energy is the one that takes a look 
at the small refineries. When the small refineries apply for 
the small refinery exemption, they apply to EPA. We send a 
request to the Department of Energy. They review the economic 
data to determine whether or not there is a hardship----
    Mr. Marshall. OK.
    Mr. Wheeler [continuing]. Based under the statute for each 
refinery, not the parent company but the refinery itself.
    Mr. Marshall. So the parent company owns five oil 
refineries, do they lump together for the number or do you take 
each one at each location?
    Mr. Wheeler. Each one, each location. The statute defines 
it as a refinery. So, for example, a large company may own a 
small refinery in the middle of the Rocky Mountains. If that 
refinery----
    Mr. Marshall. Do you feel the number that we're using is a 
good reflection, is a good number, or is that in statute?
    Mr. Wheeler. It's in statute.
    Mr. Marshall. OK. Let's talk about glyphosate for just a 
second, OK? So biochemistry major, medical physician, certainly 
I'm concerned about people's health. I'm confused myself. Which 
Federal agency, is it the EPA or the ATSDR is tasked with 
regulating and vetting the safety of glyphosate?
    Mr. Wheeler. That would be EPA under our pesticides 
program.
    Mr. Marshall. Do you feel there's any infringement going on 
by other folks like the ATSDR?
    Mr. Wheeler. We always welcome science reviews by other 
agencies and departments. We often look at the work that they 
do not just within our country but also other countries. We 
look at different international bodies. For glyphosate, we took 
one of the most comprehensive looks at that chemical, that 
pesticide ever by any regulatory body anywhere in the world. 
Our conclusions are that it is not a carcinogen, and those 
conclusions match regulatory bodies around the world.
    Mr. Marshall. Thank you, and I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Beyer.
    Mr. Beyer. Thank you, Madam Chair.
    Mr. Wheeler, during your confirmation hearing, Senator 
Whitehouse asked you about the action plan developed by your 
former lobbying client, the coal baron Robert Murray. That 
plan, which is commonly known as the Murray memo, presented a 
series of asks from Murray's fossil fuel company, one of Donald 
Trump's largest donors, asks to the Trump Administration, asked 
essentially a series of actions to gut the environmental 
protections and climate action in this country.
    So I offer with great dismay what we might call the Trump 
Administration's report card for delivering on what your former 
client Mr. Murray asked you and the EPA to do. Murray asked you 
to cut the EPA workforce in half, but you only supported the 
Trump budget, which only cut it by one-third, so let's call 
that an incomplete. He asked you to withdraw from the Paris 
climate accords. You did it right away, A-plus. He asked you to 
eliminate the Clean Power Plan. You've almost finished that, so 
we'll call that a B-plus. He asked you to eliminate the maximum 
achievable control technology standards, which regulate toxic 
pollution. He has proposed a big loophole to allow increases in 
that pollution, so that's a B. He wanted you to end cross-State 
air pollution rule. You didn't do that yet, but you've weakened 
enforcement, so maybe just a C. And we're still unclear on his 
request that you withdraw the endangerment finding for 
greenhouse gases, which is a legal basis for all of our 
regulations to fight climate change. You haven't done this yet, 
but your former boss Senator Inhofe says he thinks you'll do 
this, quote, ``eventually.''
    So did you take these directives right from Mr. Murray, and 
do you plan to complete the rest of Mr. Murray's tasks?
    Mr. Wheeler. Well, I appreciate you keeping score. As I've 
said many times, I've never read the Murray action plan. I 
didn't have it, I didn't write it, and I didn't read it, so 
this recitation of the items in there is the first I've heard 
of many of those that were included, so no, I am not following 
that plan. I don't have a copy, I never read it, I don't have 
it, I didn't write it. I've said that throughout over the last 
2-1/2 years since the beginning of my confirmation process for 
Deputy Administrator.
    Mr. Beyer. Well, I appreciate your clear statement on that, 
and I am dismayed that there is such an overlap between the 
leadership that you have offered and what the Murray memo says.
    One of the vast numbers of ethical complaints raised 
against your predecessor Scott Pruitt was that he politicized 
the EPA's response to freedom of information requests in order 
to hide his own wrongdoing. I raised issues about this last 
year, possible violations to your ethics pledge, and I confess 
you've been a significant improvement on Scott Pruitt where 
ethics are concerned.
    I'm baffled, though, that you have overseen changes to the 
FOIA (Freedom of Information Act) process, which would 
essentially codify Scott Pruitt's politicization of the FOIA 
process. Members of Congress don't like it, environmentalists 
don't like it, journalists don't like it. Why are you making it 
harder for the American people to find out how the EPA is 
making decisions?
    Mr. Wheeler. We did not do that; we're not doing that. 
Congress--EPA last changed their FOIA regulations around 2000. 
Congress amended the FOIA statute 3 times since then. In 2016, 
the last time Congress amended FOIA, they required all agencies 
and departments to update their FOIA regulations. EPA did not 
do that under the Obama Administration. We were behind. Most 
other agencies already accomplished that in 2016 or 2017. The 
changes to our FOIA regulations follow the directions that 
Congress gave us in the 2016 FOIA amendments. That was all that 
was done. It did not change our process in fact. It was mostly 
housekeeping items.
    The only change we made was to centralize where the FOIA 
requests come in to at the Agency, and that was a 
recommendation from GAO where they took a look at our FOIA 
process at EPA and said you should have a one-stop place for 
all FOIA requests, so that was the only substantive change we 
made to our FOIA regulations. The rest of it has been----
    Mr. Beyer. Why do you think there's been so much----
    Mr. Wheeler [continuing]. Blown out of proportion----
    Mr. Beyer [continuing]. Pushback from the various 
communities of concern?
    Mr. Wheeler. I don't know. I am at a loss. I guess there's 
a lot of people, particularly journalists, that believe that 
whatever we do, there must be a nefarious purpose to it. The 
FOIA regulations were actually drafted by our career attorneys 
in our General Counsel's office, had very little to no input 
from any political people on my team. And again, it was just 
following the direction that Congress gave us in the FOIA 
amendments of 2016.
    Mr. Beyer. Thank you. Madam Chair, I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Norman.
    Mr. Norman. Thank you, Madam Chair.
    Mr. Wheeler, thank you for your service. Let me focus on--
--
    Mr. Wheeler. Thank you.
    Mr. Norman [continuing]. On obsolete committees. You're 
aware in July of this year hearings were held on the Federal 
Advisory Committees at the EPA, and it focused on the potential 
impact of President Trump's executive order on advisory 
committees. Based on the characterization made by many of my 
colleagues and their friends in the media, you would think this 
order was the deathblow to science at all the agencies. In 
reality, this just seems like a commonsense, nonpartisan way to 
eliminate wasteful committees.
    When this order was executed at your Agency, do you believe 
it will have any consequences, negative I guess, for the 
ability of the EPA to protect the human health and environment?
    Mr. Wheeler. No, I don't believe it would have any negative 
impact at all.
    Mr. Norman. So that was a good move?
    Mr. Wheeler. Yes. You know, to quote President--to 
paraphrase President Reagan--I screw up the quote a lot--the 
closest thing to immortality is a government program once 
created. And I think taking a look at our advisory committees, 
the ones that we're not required under statute to determine 
whether or not they still have a useful purpose for the Agency, 
was a very important step for us to take, and I'm very pleased 
that President Trump asked all Federal departments and agencies 
to undertake that.
    Mr. Norman. So what he did is similar to what every 
business goes through, every family budget. You evaluate the 
things you're doing. If it doesn't make sense, you eliminate it 
or pare it down. If it does make sense, you go forward with it. 
So this has no negative impact in your opinion?
    Mr. Wheeler. No. And while I can't comment on what we've 
recommended to the White House as far as disbanding FACA 
(Federal Advisory Committee Act) committees, I do want to 
clarify because there has been misreporting in the press that 
we're going to do away with our children's health FACA. We just 
published in the Federal Register I believe this week 
reconstituting that FACA, so we are not doing away with the 
children's health FACA. I can say that. I cannot say which ones 
we've recommended to the White House, however.
    Mr. Norman. And how any committees were affected by this?
    Mr. Wheeler. I believe we had approximately 12 committees 
that were created not by statute but just by administrative 
creation, and we examined all 12 of those--approximately 12, 
and we examined those to see whether or not they should be 
eliminated, and then we made our recommendations to the White 
House. And the White House has asked all agencies and 
departments not to discuss our recommendations until they've 
had a chance to review all of the departments' and agencies' 
recommendations.
    Mr. Norman. So none of the agencies that were eliminated 
were statutory? It was all administratively administered----
    Mr. Wheeler. That's right.
    Mr. Norman [continuing]. Or started out? And what he did 
was actually--I would make the argument it would be helping the 
Agency, wouldn't it?
    Mr. Wheeler. I--yes, just to--I think every agency should 
periodically take a look at organizations like that that they 
have to see whether or not they still make sense to continue. I 
think it was a very useful exercise. There were a couple of 
committees to be honest that we looked at that hadn't met in 
several years, so you have to wonder whether or not it's a 
useful purpose if they aren't even meeting.
    Mr. Norman. Which everyday Americans do.
    Mr. Wheeler. Yes.
    Mr. Norman. Thank you. Madam Chair, I'm going to yield the 
balance of my time to Chairman Lucas.
    Mr. Lucas. I thank my colleague.
    Director, let's discuss for just a moment, there's been 
some topics and discussions here. Is there anywhere in Federal 
law, is there anywhere in custom, is there anywhere in 
administrative policy down through the years where EPA is 
charged with tailoring its decisions to match the needs of the 
biggest corporations or the needs of a few particular States? 
Don't you have a broader jurisdiction than that----
    Mr. Wheeler. We do----
    Mr. Lucas [continuing]. A responsibility?
    Mr. Wheeler. We try to look holistically at the impact of 
all of our regulations across everyone. The EtO, the ethylene 
oxide that I was asked about earlier, one of the reasons why 
we're going a little slower on that is we've been asked to do a 
small business SBREFA (Small Business Regulatory Enforcement 
Fairness Act) panel to take a look to see what the impacts 
might be for small businesses. We have to take those into 
account before we go forward with a regulation.
    Mr. Lucas. So the whole country, the impact on the entire 
Nation, every citizen, not just particular places or particular 
entities?
    Mr. Wheeler. Yes.
    Mr. Lucas. Fair statement? Thank you, Director. Yield back, 
Chairwoman.
    Chairwoman Johnson. Thank you. Mr. Crist.
    Mr. Crist. Thank you, Madam Chair.
    And, Administrator, thank you for being with us today.
    This past June the EPA finalized its Affordable Clean 
Energy rule known as the ACE rule as a replacement for the 
Obama-era Clean Power Plan. In past hearings you've insisted 
that the ACE rule will reduce emissions by 34 percent from 2005 
levels by 2030. However, EPA's own analysis of ACE notes that 
the rule will only decrease emissions between .7 and 1.5 
percent below baseline.
    Even more alarming, the analysis also notes that repealing 
the Clean Power Plan and replacing it with ACE will lead to 
1,400 premature deaths, 15,000 more cases of upper respiratory 
problems, and 48,000 more cases of asthma. How can I go back to 
my constituents in Florida and tell them that this rule is 
supposed to protect their health and the environment when the 
EPA itself admits that the rule will cause over 1,000 deaths 
and at best marginally reduce emissions?
    Mr. Wheeler. Well, first of all, Congressman, I don't 
believe that's true. First of all, the Clean Power Plan never 
took effect, so you can't compare a regulation that is on the 
books to something that was a pie-in-the-sky dream by the Obama 
Administration that was outside of the Clean Air Act. The Clean 
Power Plan, it was subject to the historic stay by the Supreme 
Court, and we--I--we believe--I believe that that happened 
because the Clean Power Plan was outside of the Clean Air Act. 
It did not have the statutory authorization that was necessary 
for a regulation. So the Obama Administration put forward the 
Clean Power Plan, never took effect, so you can't compare what 
might have happened for a regulation that did not--that was not 
grounded in the statute--in the statute itself.
    I--I'm--have to admit the number you quoted for our ACE 
rule, I'm not familiar with that. I'd like to get back to you 
on that specifically. I don't think I've said by 2030. I think 
what I say is 34 percent reduction below 2005 levels over the 
course of the regulation. Now, that course may be 2030. I don't 
remember the year off the top of my head. But I will get back 
to you to answer this specific question that you had on the 
other reduction level.
    Mr. Crist. Well, thank you. I'd appreciate that, 
Administrator.
    Mr. Wheeler. Thank you.
    Mr. Crist. Of course. Your Agency's website clearly states 
that EPA's mission is to protect human health and the 
environment. Given the findings and the impact analysis that 
your Agency produced, it's clear that the ACE rule doesn't come 
close to meeting what anybody would look at that mission to be. 
I appreciate that you're going to check, but I'm not comparing 
two things. I'm only citing what your own Agency has said the 
effect of the ACE rule would be.
    Mr. Wheeler. That was in our proposal, not in the final 
regulation of that comparison. And again, the Clean Power Plan 
never took effect, so you can't really say that the Clean Power 
Plan would have saved any lives since it--no--it was never 
effective. Nobody was complying with the Clean Power Plan.
    And, again, you know, the--when we stepped in and we saw 
that the Clean Power Plan had been stayed by the Supreme Court, 
you know, people turned to us. I had people from the right that 
said you shouldn't do anything, you should overturn the 
endangerment finding. I had people on the left that said you 
need to defend the Clean Power Plan even though the stay from 
the Supreme Court. But what we did is we took a look at the 
Clean Air Act, we determined what the statute required us to 
do, what it called for us to do. We wanted to make sure that we 
were reducing CO<INF>2</INF> emissions to the electric power 
sector because we were required to do that under the 
Massachusetts v. EPA decision, and we went forward with a 
regulation, the ACE rule that we believe follows the Clean Air 
Act and will reduce CO<INF>2</INF> emissions from industry.
    Again, you know, people didn't want us to do anything. They 
thought we should overturn the endangerment finding. Other 
people, of course, liked the Clean Power Plan even though it 
was not--it never took effect. Well, what we did was go back to 
the Clean Air Act itself, take a look at the requirements were, 
the Supreme Court decision, and we put forward a regulation 
that we believe will reduce CO<INF>2</INF> emissions from the 
electric power sector.
    Mr. Crist. I certainly hope so.
    Chairwoman Johnson. Thank you very much.
    Mr. Wheeler. Thank you.
    Mr. Crist. Thank you.
    Chairwoman Johnson. Ms. Wexton.
    Ms. Wexton. Thank you, Madam Chair, and thank you, 
Administrator Wheeler, for joining us here today.
    We've all seen the recent headlines about office 
relocations being carried out by other departments within the 
Federal Government. Right now, the USDA (U.S. Department of 
Agriculture) is in the process of rushing through the 
relocation of two agencies from Washington, D.C. to Kansas 
City, despite being unjustified and in violation of the law. 
And the Interior Department has proposed to move most of the 
Bureau of Land Management's D.C. staff to Colorado and has 
started notifying employees this week of where their jobs will 
be moved to.
    It's apparent that these moves are not to save the 
taxpayers money or provide better services to constituents but 
instead to sideline the scientific work that's being done by 
these agencies and further the agenda of this Administration to 
dismantle crucial parts of the Federal Government. These 
radical decisions have already created a devastating 
consequence for the offices and the affected employees. Many of 
these Federal employees are my constituents. They are 
dedicated, hardworking people who want only to serve our 
country. They don't deserve to be pawns in a political game.
    So I want to give you the opportunity right now to reassure 
EPA employees in the greater Washington, D.C. area and in other 
hubs around the country like the North Carolina Research 
Triangle and Cincinnati, Ohio, that there are no plans to 
disrupt their lives as part of a political agenda against the 
Federal Government and scientific evidence. So I ask you 
directly, yes or no, does EPA have any plans currently under 
consideration to relocate substantial numbers of EPA employees 
or functions out of the D.C. area or from one region of the 
country to another?
    Mr. Wheeler. First part of the question is easy, no, we 
don't have plans to relocate substantial numbers of people out 
of the D.C. area at all. On the regional side, I--we are trying 
to move some of our labs--as--I don't know if you were here 
earlier when I had a question about the Region 6 lab in Texas. 
We're moving that from a leased space in Houston to an EPA-
owned facility in Ada, Oklahoma, but it's still within the 
region.
    Ms. Wexton. In addition to----
    Mr. Wheeler. We want to make sure that we have a regional 
lab in all 10 of our regions, but we are moving some of our 
labs to EPA- or GSA-owned space, which is what Congress 
required us to do in 2016----
    Ms. Wexton. And are you moving it----
    Mr. Wheeler [continuing]. In the FASTA Act.
    Ms. Wexton. And are you moving it to space within the same 
general geographic region?
    Mr. Wheeler. Yes.
    Ms. Wexton. OK.
    Mr. Wheeler. With one exception which predates me, and that 
decision, I believe, was made by the Obama Administration. We 
moved a large part of the Region 9 lab in California to Oregon, 
I believe.
    Ms. Wexton. OK. Thank you.
    Mr. Wheeler. But that was a decision from several years 
ago.
    Ms. Wexton. I'm going to reclaim my time. I'd like to speak 
for a moment about David Dunlap's role in the IRIS formaldehyde 
review. The senior-most political official that oversees IRIS, 
David Dunlap, recently left a long career with Koch Industries, 
which owns one of the largest formaldehyde producers in the 
country, you may be aware. In February 2018 Dr. Dunlap emailed 
your Chief of Staff Ryan Jackson from his Koch email address. 
In that message Mr. Dunlap urged Mr. Jackson to review some of 
the studies and said he would, quote, ``provide inhaled 
formaldehyde does not cause leukemia in humans.'' Six months 
after that, Mr. Dunlap came to work for the EPA. Three months 
after that, the IRIS review of formaldehyde had been 
eliminated. This timeline speaks for itself.
    Questions for the record were issued to the Agency 
regarding Mr. Dunlap's participation in decisionmaking around 
formaldehyde. The EPA finally sent responses on Friday, 5 
months later, but ignored those questions.
    So I'll ask you again here. Was David Dunlap involved in 
decisionmaking related to formaldehyde prior to his December 
2018 recusal?
    Mr. Wheeler. Not to my knowledge. He hasn't briefed me on 
formaldehyde, and to my knowledge he hasn't been involved in 
any of the formaldehyde decisions. He recused himself from 
that. The process that we used on the IRIS process actually 
started before he joined the Agency, and that was--the IRIS 
program itself has had problems dating back to the early 1990s 
when I first started working at EPA. I wanted to make sure that 
our regulatory programs are--can utilize the IRIS assessments 
when they come out, so we started a new process last summer 
where there had to be an agreement between the IRIS program and 
the regulatory offices within EPA as to what their assessments 
going forward would be and what the regulatory purpose was.
    Ms. Wexton. And I apologize, but I'm out of time. And I 
know that you said not to your knowledge, but would you be 
willing to get confirmation of that, that he did not have any 
involvement with that decisionmaking process throughout your 
entire Agency and provide that confirmation to this Committee?
    Mr. Wheeler. Yes, I'll be happy to look into that.
    Ms. Wexton. Thank you.
    Chairwoman Johnson. Thank you. Mr. Foster.
    Mr. Foster. Thank you, Madam Chairwoman, and thank you, 
Administrator Wheeler.
    Yesterday, the President announced that this week the EPA 
would be issuing a notice of violation for environmental 
pollution to the city of San Francisco. Could you walk us 
through the timeline for the scientific studies, legal 
determinations, and technical measurements that led to that 
announcement?
    Mr. Wheeler. At this point we--I can't comment on a 
potential EPA enforcement action. We've not taken any official 
steps yet. We're still looking into the issues, and it's not 
a--I can't comment on a pending or potential enforcement 
action.
    Mr. Foster. But when the President said it was coming this 
week, is it routine for you to issue notices of violation, 
whatever that means, with less than 1 week of preparatory work?
    Mr. Wheeler. Again, I don't--I didn't see where he said it 
was happening this week, but----
    Mr. Foster. It was carried in multiple news reports from 
the reporters that listen to his comment.
    Mr. Wheeler. I'll----
    Mr. Foster. I certainly take those at face value as well. 
But, yes, so you're telling us there was no preliminary action, 
there had been no finding that San Francisco--for example, how 
was San Francisco chosen as opposed to Miami or Bedminster, New 
Jersey, or wherever else you might think of finding 
environmental violations?
    Mr. Wheeler. Again, I can't comment specifically on a 
pending--a potential pending enforcement action. As the Agency 
head, before we take an enforcement action, it's inappropriate 
for me to comment publicly on anything that we may be doing on 
the enforcement side.
    Mr. Foster. But you routinely, apparently without--if the 
President decides something and a week later he expects the EPA 
to issue a notice of violation, take some official action, is 
that the way you do business, or was the President saying 
something that was not true there?
    Mr. Wheeler. I don't want to comment on my conversations 
with the President, but again, on enforcement actions, I cannot 
comment on a pending--potential pending enforcement action.
    Mr. Foster. No, this is a matter of how you do business. 
Can the President show up one week and say I think we should 
issue a violation, that EPA will do it, and then you fast-track 
all of the scientific legal findings, everything----
    Mr. Wheeler. No, that is not how we do business, and that--
--
    Mr. Foster. So how can it logically be true that when the 
President announces that within a week we're going to have a 
notice of violation if that is not the way you do business? I'm 
just trying to understand the logical----
    Mr. Wheeler. I will be----
    Mr. Foster [continuing]. Gap.
    Mr. Wheeler. If we do take an enforcement action and once a 
decision is made whether or not we are going to take an 
enforcement action, I would be more than happy to brief you and 
your staff on the decision process that we took.
    Mr. Foster. OK. Will you be able to get----
    Mr. Wheeler. But I cannot at this point in time----
    Mr. Foster. For the record, will you be able to get back to 
us----
    Mr. Wheeler [continuing]. Comment publicly----
    Mr. Foster. OK. But will you be able to get--within a week 
when the President announced you would be doing it, can you get 
back either with the notice of violation or an explanation for 
what the President said was not correct, one or the other?
    Mr. Wheeler. I'm not sure within a week, but we certainly--
before we make a--after we make a decision----
    Mr. Foster. But if you never make a decision----
    Mr. Wheeler [continuing]. For a potential enforcement----
    Mr. Foster [continuing]. Because it turns out that the 
statement that he was making was not supported by facts, then 
we will--making no promise----
    Mr. Wheeler. I will get back to you----
    Mr. Foster [continuing]. Within a week you figure out 
what's----
    Mr. Wheeler [continuing]. As soon as we can.
    Mr. Foster [continuing]. Figure out what's going on----
    Mr. Wheeler. I will get back to as soon as we can with 
statements explaining our actions----
    Mr. Foster. All right. Let's----
    Mr. Wheeler [continuing]. Or why we're not acting.
    Mr. Foster. A quick question. You know, often when you 
decide to alter or abolish a regulation, you know, it's a cost-
benefit analysis. The costs are measured in dollars, and the 
benefits are measured in saved human lives. To do that balance 
you need to know what's the value of a human life in dollars. 
How do you think about that problem, and what is your best 
number and the one you try to operate in making that balance?
    Mr. Wheeler. Well, we always want to show that the benefits 
of a regulatory action outweigh the costs----
    Mr. Foster. But--all right. In----
    Mr. Wheeler [continuing]. And that is why we're moving 
forward----
    Mr. Foster [continuing]. Dollars versus human life----
    Mr. Wheeler [continuing]. With a statute-by-statute 
approach on cost-benefit analysis.
    Mr. Foster. Right. But you need to convert the benefits of 
human lives and compare them with a cost in dollars. That----
    Mr. Wheeler. Yes.
    Mr. Foster [continuing]. So you need a calibration.
    Mr. Wheeler. We do that----
    Mr. Foster. What is your calibration?
    Mr. Wheeler. We do that on a regular basis. Some of our 
statutes require different balances. Some require no 
consideration of cost. You know, I'm thinking of the NAAQS in 
particular when you set that science-based standard for the 
National Ambient Air Quality Standards. We're not supposed to 
take costs into account, so we take a look at the science, we 
take a look at the impacts on human life. So it differs from 
statute by statute. But we do take that into account. And in 
our regulatory analysis for all of our regulations, we explain 
the balance and the cost factors and the benefit factors that 
we use for each individual regulatory decision.
    There's one reason why instead of having a cost-benefit 
regulation that apply to all of our regulations, which is what 
we proposed last year. We decided instead to do it on a 
statute-by-statute basis because of the differences between the 
statutes. We can't just come up with a simple formula for cost-
benefit analysis for all of our regulations. We have to look on 
a statute-by-statute basis.
    Mr. Foster. I guess my time is up.
    Chairwoman Johnson. Thank you very much. Mr. Casten.
    Mr. Casten. Thank you, Madam Chair. Thank you, Mr. Wheeler.
    First off, do you confirm that the EPA has found that 
current and projected levels of greenhouse gas emissions 
threaten public health and the welfare of current and future 
generations, yes or no?
    Mr. Wheeler. Yes, I believe that was the endangerment 
finding----
    Mr. Casten. OK. That's----
    Mr. Wheeler [continuing]. By the Obama Administration.
    Mr. Casten. That is--the organizations we work for are 
bigger than us. I'm just focusing at your organization.
    Second, I want to clarify, you had said to Mr. Crist a 
moment ago that essentially intimated that the estimates of ACE 
versus the Clean Power Plan are an apples-to-oranges. I'm 
holding in my hand the report that the EPA issued. I flipped it 
random to page 325, and it says the base case is the Clean 
Power Plan and then goes through and does comparisons. This 
entire justification for the ACE is compared to the Clean Power 
Plan. All the numbers Mr. Crist--do you confirm that this 
report throughout all of these pages compares ACE to the Clean 
Power Plan?
    Mr. Wheeler. That was in our proposal. Our final action did 
not----
    Mr. Casten. The numbers that----
    Mr. Wheeler [continuing]. Compare because we decided that 
the Clean Power Plan was not the rule----
    Mr. Casten. The numbers that Mr. Crist cited were 
consistent with that, so do you confirm then----
    Mr. Wheeler. From our proposal----
    Mr. Casten [continuing]. That while the----
    Mr. Wheeler [continuing]. Not from our final regulation, 
sir.
    Mr. Casten. Do you confirm that while the Clean Power Plan 
was designed to reduce emissions, designed to reduce emissions 
by 32 percent, your proposal was designed to reduce emissions 
by a .7 to 1.5 percent? Again, I am quoting your own report.
    Mr. Wheeler. Again, that was the proposal, not the final 
action. We took comment on that, and our final numbers are in 
our final regulation that we finalized in July. So you're 
taking the----
    Mr. Casten. The----
    Mr. Wheeler [continuing]. Numbers from our proposal, and 
they changed----
    Mr. Casten. So you confirm that this report is an accurate 
statement from the EPA. Do you also confirm that this report 
says that the ACE proposal would result in as many as 1,400 
additional deaths by 2030?
    Mr. Wheeler. No, that was looking at the Clean Power Plan 
if the Clean Power Plan had been enacted. And again, the Clean 
Power Plan was stayed by the Supreme Court, so it was never----
    Mr. Casten. OK. Sir, I will submit this to the record.
    Mr. Wheeler. All right.
    Mr. Casten. These numbers are in here. Now, I am 
concerned----
    Mr. Wheeler. From the proposal, not from the final 
regulation, though.
    Mr. Casten. Sir, I have spent the first 7 years of my 
career in the sciences, the next 16 years running a business. 
You've had a distinguished career in lobbying. I do not have 
the luxury in my career of selectively interpreting facts. I 
want to stay on facts because I'm really concerned with the way 
that you have analyzed facts.
    When you considered the impacts of the ACE proposal, do you 
confirm that you reduced the discount rate for future analyses 
from 3 percent to 7 percent?
    Mr. Wheeler. I believe so, but I'd have to get back to you 
on that.
    Mr. Casten. OK. I will so stipulate that that is in the 
report. That has the practical effect of essentially lowering 
by about a factor of 4 over a 30-year plan--for those of you 
who are not fluent in compound math--to the cost of the 
proposal.
    That is not the only place that the ACE changed. On page 
164 of the proposed rule for ACE, table 17 shows that there is 
a net benefit of going from the Clean Power Plan to ACE. On the 
very next page, page 165, it says that if you include the 
health impacts, which I think is in your mandate, that there is 
actually a net cost. Do you confirm that the justification for 
ACE omitted the health impacts----
    Mr. Wheeler. No, again----
    Mr. Casten [continuing]. Of reducing----
    Mr. Wheeler [continuing]. That is from our proposal, and 
you're citing something that we took comment on. The final 
Agency record on this regulation was our final regulation 
issued in July. It was not from a----
    Mr. Casten. OK. Now----
    Mr. Wheeler [continuing]. Proposal that we received 
comments on and modified and changed----
    Mr. Casten. With----
    Mr. Wheeler [continuing]. Before we went final.
    Mr. Casten. Madam Chair, I'd like unanimous consent to 
enter these documents into the record. I want to move on with 
the moments I have left here. Will you----
    Chairwoman Johnson. Without objection.
    Mr. Casten. When you appeared before the Senate for your 
confirmation hearing, Senator Merkley asked you about a study 
from Boston University, Harvard, and Syracuse that had recently 
been published. The study found that the ACE proposal would 
provide no, zero meaningful reductions because it effectively 
allows plans to bypass pollution controls. At the time you said 
you had not had time to review the study.
    Madam Chair, I ask unanimous consent to enter this study 
into the record.
    Mr. Casten. Have you had a chance to review that peer-
reviewed paper since?
    Mr. Wheeler. I looked at it at the time, but again, that 
was based on our proposal, not on our final regulation, which 
we--and the justifications. We don't believe that that study 
was accurate.
    Mr. Casten. Can you explain the discrepancy between the 34 
percent reduction cited in the regulatory impact analysis and 
what the authors of the study found?
    Mr. Wheeler. No, I cannot explain what the authors of the 
study found.
    Mr. Casten. Will you commit to providing your analysis of 
why you think this is justified after this hearing is over?
    Mr. Wheeler. Yes.
    Mr. Casten. Thank you. I yield back.
    Chairwoman Johnson. Thank you very much.
    Mr. Wheeler, I skipped my questions so we would get more 
Members. I'm going to submit them to you, which really has to 
do with procedure and decisionmaking. I wonder if you would 
maybe be able to respond in a 2-week period.
    Mr. Wheeler. I will certainly strive to.
    Chairwoman Johnson. OK. Thank you so very much for 
testifying before the Committee.
    The record will remain open for 2 weeks for additional 
statements from the Members and for any additional questions 
the Committee might want to ask the witness.
    The witness is now excused, and we thank you for coming. 
The Committee is adjourned.
    Mr. Wheeler. Thank you.
    [Whereupon, at 12:10 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
